Office of Inspector General
	
Small Business Administration



        Semiannual Report to Congress
	
                      Spring 2013
	




        October 1, 2012 — March 31, 2013
	
                                    Small Business Administration


                            Ofjce of Inspector General
                                         Washington, DC 20416


I am pleased to present the U/S/ Small Business Administration (SBA or the Agency) Ofjce of Inspector
General’s (OIG) Spring 2013 Semiannual Report to Congress/ The report provides a summary of the OIG’s
activities from October 1, 2012 —March 31, 2013/ As our statistics indicate, the OIG’s efforts to eliminate
fraud, waste, and abuse in SBA programs during this period continue to significantly benefit taxpayers/

During this reporting period, the OIG issued 12 reports containing 97 recommendations for improving
SBA operations and reducing fraud and unnecessary losses in the Agency’s programs/ In addition, OIG
investigations resulted in 37 indictments and 23 convictions, and 16 recommendations for suspension and/
or debarment/ Overall, the OIG achieved monetary recoveries and savings of $123,004,390 from recom1
mendations that funds be put to better use agreed to by management- disallowed costs agreed to by man1
agement- court-ordered and other investigative recoveries, fines, and forfeitures- and loans or contracts
not made as a result of investigations and name checks/

In achieving these results, the OIG dedicated its auditing and investigative resources toward the principal
program areas of the SBA/ A few noteworthy investigations and reviews detailed in this report are high1
lighted below/

	 The OIG issued its Report on the Most Serious Management and Performance Challenges Facing the
   Small Business Administration in Fiscal Year 2013/ Overall, the SBA made improvements in accom1
   plishing recommended actions across the challenges/ Six recommended actions were elevated as a
   result of noted accomplishments by the Agency, while three were downgraded/
	 A loan broker pled guilty to conspiracy to fraudulently obtain over $100 million in SBA-guaranteed
   loans/ The loan broker admitted that from 2003 until October 2011, he and others under his direction
   submitted SBA loan applications and supporting documentation to loan originators and underwriters
   on behalf of their clients that contained fraudulent documents/
	 The OIG issued a report presenting the results of an audit of the SBA Improper Payment Rate for 7(a)
   Guaranty Purchases for Fiscal Year 2011/ The OIG found the SBA reported an improper payment rate
   of 1/73 percent, or $40/7 million, in its FY 2011 Agency Financial Report, when the rate could have been
   as high as 20 percent, or about $472 million/
	 The OIG issued a report pertaining to 417 unauthorized commitments made by the SBA, valued at
   more than $1/4 million between November 2010 and May 2012/ The OIG found that the total number
   of unauthorized commitments at the SBA— in the last two fiscal years— greatly exceeded the total
   number of unauthorized commitments at six other federal agencies of a similar size/

I would like to thank the OIG’s employees for their outstanding efforts to promote economy, efjciency,
effectiveness, and integrity in SBA programs and operations/ We look forward to continuing to work with
Administrator Mills and SBA’s management to address the issues and challenges facing the Agency/




Peggy E/ Gustafson
Inspector General
This page intentionally blank;
Table of Contents
	

Overview of the SBA and the OIG.........................................................................................///1
	

Management Challenges000000000000000000000000000000000000/0//2
	

Small Business Access to Capital............................................................................................. 3
	

Disaster Loan Program.............................................................................................................7
	

Procurement Assistance...........................................................................................................9
	

Agency Management...............................................................................................................13
	

Other Significant OIG Activities ........................................................................................... 18
	

Statistical Highlights. October 1, 2012 –March 31, 2013 ....................................................... 22
	

Appendix I. OIG Reports Issued October 1, 2012 –March 31, 2013......................................24
	

Appendix II. OIG Reports with Questioned Costs..............................................................26
	

Appendix III. OIG Reports with Recommendations that Funds Be Put to Better Use .... 27
	

Appendix IV. OIG Reports with Non-Monetary Recommendations.................................28
	

Appendix V. Reports from Prior Periods with Overdue Management Decisions ............29
	

Appendix VI. Reports Without Final Action as of September 30, 2012 .............................30
	
Appendix VII. Summary of Significant Recommendations from Prior Reporting
	
Periods Without Final Action of as March 31, 2013 .............................................................46
	

Appendix VIII. Summary of Significant Recommendations
	
October 1, 2012 –March 31, 201300000000000000000000000000000000////57
	

Appendix IX. Cosponsored and Other Activities October 1, 2012 –March 31, 2013...........60
	

Appendix X. Legal Actions Summary ..................................................................................65
	

Appendix XI. Results of External Peer Reviews................................................................... 72
	

Appendix XII. Ofjce of Inspector General Organization................................................... 73
	

Appendix XIII. Ofjce of Inspector General Organization Chart.......................................74
	
This page intentionally blank;
Overview


The Small Business Administration                          The Ofjce of Inspector General
The mission of the Small Business Administration           Pursuant to the Inspector General Act of 1978 (the IG
(SBA or the Agency) under the Small Business Act, as       Act), as amended, the Ofjce of Inspector General
amended, is to maintain and strengthen the Nation’s        (OIG) provides independent, objective oversight to
economy by enabling the establishment and vitality         improve the integrity, accountability, and perfor1
of small businesses and assisting in the economic          mance of the SBA and its programs for the benefit of
recovery of communities after disasters/ The Agen1         the American people/ While SBA’s programs are es1
cy’s Fiscal Years (FY) 2011-2016 strategic plan has        sential to strengthening America’s economy, the
three overarching goals.                                   Agency faces a number of challenges in carrying out
                                                           its mission, including fraudulent schemes affecting
         Growing businesses and creating jobs             all SBA programs, significant losses from defaulted
         Building an SBA that meets the needs of          loans, procurement flaws that allow large firms to
          today’s and tomorrow’s small businesses          obtain small business awards, excessive improper
         Serving as the voice for small business          payments, and outdated legacy information sys1
                                                           tems/ The OIG plays a critical role in addressing
The SBA has also identified its Priority Goals for         these and other challenges by conducting audits to
FYs 2012-2013, which are. (1) processing business          identify wasteful expenditures and program misman1
loans as efjciently as possible, (2) increasing small      agement, investigating fraud and other wrongdoing,
business participation in government contracting, (3)      and taking other actions to deter and detect waste,
processing disaster assistance applications efjciently,    fraud, abuse, and inefjciencies in SBA programs and
and (4) expanding access to long-term capital by           operations/
committing at least $4/3 billion of capital via the
Small Business Investment Company program/                 The OIG’s activities also help to ensure that SBA em1
                                                           ployees, loan applicants, and program participants
The SBA is organized around four key functional            possess a high level of integrity/ This is critical to the
areas including financial assistance, contracting assis1   proper administration of the SBA’s programs because
tance, technical assistance (e/g/, entrepreneurial de1     it helps ensure that SBA resources are used by those
velopment), and disaster assistance/ The Agency also       who deserve and need them the most/ Appendix I
represents small businesses through an independent         contains information regarding audit and other re1
advocate and an ombudsman/                                 ports issued by the OIG during this reporting period/
                                                           Appendix X contains summaries of investigative ac1
The SBA’s headquarters is located in Washington,           tions/ Copies of OIG reports and other work prod1
D/C/ with staff in 10 regional ofjces, 68 district ofjc1   ucts are available on the OIG’s website at
es, their corresponding branch ofjces, and 4 disaster      http.//www/sba/gov/ofjce-of-inspector-general/
field ofjces to deliver business products and services/
There are also six government contracting area ofjc1
es/ The SBA also maintains a vast network of re1                                      ***
source partners in all 50 states, the District of Colum1
bia, Puerto Rico, American Samoa, the U/S/ Virgin
Islands, and Guam/

                          ***
Management hallenges


Each year the OIG identifies the most serious man1                            with recommended remedial actions together with an
agement and performance challenges facing the                                 assessment of Agency progress on each recommend1
Agency/ In accordance with the Reports Consolida1                             ed action during the preceding fiscal year/ If sufj1
tion Act of 2000 and Ofjce of Management and                                  cient progress occurs during the previous fiscal year,
Budget (OMB) Circular A-136, the SBA reports this                             the OIG awards a higher color score and the arrow
information in its Agency Financial Report (AFR)/                             indicator shows upward movement/
The Management Challenges represent areas that the
OIG considers particularly vulnerable to fraud, waste,                        On October 15, 2012, the OIG issued its Report on the
abuse, or mismanagement, or which otherwise pose                              Most Serious Management and Performance Chal1
significant risk to the Agency, its operations, or its                        lenges Facing the SBA in FY 2013/ The following table
credibility/ Each Management Challenge generally                              provides a summary of those Challenges.
has originated from one or more OIG or Government
Accountability Ofjce (GAO) report(s)/ For each
Management Challenge, the OIG provides the Agency




Table 1 Color Score Status at End of FY 2012


                                                                                                                          Change from
                                                                    Status at End of FY 2012
                                                                                                                           Prior Year
                        Challenge                     Green          Yellow           Orange         Red            Up #*        Down #**

   1      Small Business Contracting                     1                              2                             1

   2      IT Security                                                    3              2

   3      Human Capital                                                  1              3                             1

   4      Loan Guaranty Purchase                                         1

   5      Lender Oversight                               1               1              1                             1

   6      8(a) Business Development Program                              1              1              1

   7      Loan Agent Fraud                               1               1                                            1

          Loan Management and Accounting
   8                                                                     1                             3              1                 3
          System
          Improper Payments –
   9                                                                     2              2                             1
          7(a) program

          Improper Payments – Disaster Loan
  10                                                                     1
          program

  11      Acquisition Management (NEW)

               TOTAL                                     3               12             11             4             6                  3



 *“Up” refers to the number of recommended actions in the challenge that improved//
	
**“Down” refers to the number of recommended actions in the challenge that declined from a higher color rating/ 





                                                                     2
Small usiness !ccess to apital


The SBA has a financial assistance portfolio of guar1          Criminals use a wide array of methods to fraudu-
anteed and direct loans of nearly $102 billion/ The            lently obtain—or induce others to obtain—SBA-
Agency’s largest lending program, the Section 7(a)             guaranteed loans.
Loan Guaranty Program, is the SBA’s principal vehicle
                                                               These techniques include submitting fraudulent doc1
for providing small businesses with access to credit
                                                               uments, making fictitious asset claims, manipulating
that cannot be obtained elsewhere/ Proceeds from a
                                                               property values, using loan proceeds contrary to the
7(a) loan may be used to establish a new business or
                                                               terms of the loans, and failing to disclose debts or
to assist in the acquisition, operation, or expansion of
                                                               prior criminal records/ Consequently, there is a
an existing business/ This program relies on numer1
                                                               greater chance of financial loss to the Agency and its
ous outside parties (e/g/, borrowers, loan agents, and
                                                               lenders/ Some of the methods are described below.
lenders) to complete loan transactions, with the ma1
jority of loans being made by lenders to whom the              	 The president of a California business was in1
SBA has delegated loan-making authority/ Addition1                 dicted for bank fraud/ She allegedly submitted a
ally, the SBA has centralized many loan functions and              loan application that failed to disclose personal
reduced the number of staff performing these func1                 and corporate debts in order to obtain a
tions, placing more responsibility on, and giving                  $1,750,000 SBA-guaranteed Recovery Act loan/
greater independence to, its lenders/ The OIG contin1
ues to identify weaknesses in the SBA’s lender over1           	 A Louisiana couple was indicted for conspiracy
sight processes/                                                   to commit mail and wire fraud, submitting a
                                                                   false document to a department or agency of the
The SBA’s Section 504 Loan Program provides small                  United States, and making a false statement to
businesses with long-term, fixed-rate financing for the            the SBA/ Each of them was also charged with a
purchase of land, buildings, machinery, and other                  forfeiture allegation seeking proceeds from the
fixed assets/ Local economic development organiza1                 alleged crime/ The couple had obtained a
tions approved by the SBA are known as Certified                   $560,000 SBA-guaranteed loan to purchase a
Development Companies (CDCs)/ The CDCs package,                    furniture store/ However, they allegedly misrep1
close, and service these loans, which are funded                   resented the value of the collateral for the loan,
through a mix of funds from private sector lenders,                sold the collateral business personal property
proceeds from the sale of SBA-guaranteed debentures,               without the lender’s knowledge, and falsified
and borrower equity investment/                                    their personal financial statements/ This case
                                                                   was based on a referral from the SBA National
The Microloan Program provides small ($50,000 or                   Guaranty Purchase Center/
less), short-term loans and technical assistance to
small business concerns, as well as non-profit child-                                   ***
care centers, through SBA-funded intermediary lend1
ers/ These lenders are non-profit, community-based             Early Fraud Detection Working Group and Audit
organizations with experience in lending and provid1           Information Leads to Convictions
ing management and technical assistance to business1           A Virginia man pled guilty to misprision of a felony
es/                                                            in connection with a $1,715,650 SBA loan made to an
                                                               Ohio tire recycling firm to finance its purchase of
Through the Small Business Investment Company                  tire shredding equipment/ The investigation found
(SBIC) Program, the SBA licenses and makes funds               that he had concealed certain felonies, such as mak1
available to venture capitalists known as SBICs/ The           ing false statements on a loan application, wire
SBICs lend or otherwise invest in small businesses             fraud, and bank fraud/ He also concealed those felo1
using participating securities made up of contribu1            nies from authorities while collaborating with the
tions from SBA and private investors or funds gener1           owner and manager of the Ohio recycling firm/ The
ated through the sale of SBA-guaranteed debentures/            two men had planned to prepare, manipulate, and
                                                               submit fraudulent financial documents, packing lists,
                          ***

                                                           3
commercial invoices, and bills of lading to a bank             jects financed by guaranteed loans, some borrowers
and the SBA/ In addition, the Ohio man was found               try to avoid this obligation by falsifying the amount or
guilty of conspiracy, bank fraud, and wire fraud/ He           source of these injections, as shown by the following
had provided false and fictitious application docu1            examples/
ments, invoices, and other paperwork to a bank and
the SBA in order to secure the loan/ This case was             	 A Texas couple was indicted for conspiracy and
based on information received from the OIG Early                   wire fraud, and the husband was also charged
Fraud Detection Working Group and the OIG Audit1                   with making false statements/ The indictment
ing Division/ This was a joint investigation with the              included a notice of criminal forfeiture of at least
Federal Bureau of Investigation (FBI)/                             $280,000 associated with the alleged crimes/ The
                                                                   couple had received a $420,000 SBA-guaranteed
                                                                   loan to purchase a convenience store/ However,
Chicago-Area Loan Agent Pleads Guilty to Fraud
                                                                   an anonymous complainant alleged that they did
A Chicago-area loan agent pled guilty to bank fraud                not have adequate funds to pay the required cash
in connection with multiple residential and com1                   injection, thus triggering the investigation/ The
mercial loan fraud schemes/ One scheme involved a                  husband represented to the lender that most of
$1/760 million SBA loan for the purchase of a Chica1               the nearly $146,400 cash injection was coming
go gas station and convenience store/ The loan                     from the sale of a previously owned convenience
agent recruited an unqualified buyer for the station               store/ In reality, the couple had depleted most of
and prepared counterfeit investment account state1                 those funds prior to closing on the SBA loan/
ments, cashier’s checks, and a bogus management                    Moreover, the wife had secured lines of credit
résumé to make the buyer appear qualified to the                   from two banks by using different company
lender and the SBA/ He also recruited a third party                names/ Over $91,000 of the cash injection was
to provide the down payment funds needed by the                    derived directly from these lines of credit/ The
buyer at closing and directed the use of loan pro1                 couple allegedly did not disclose these additional
ceeds to repay that third party after the loan closing/            debts to the lender/
The parties inflated the business’ contract sales price
and used a bogus second mortgage from the seller to
obtain 100% financing for the buyer/ After loan dis1           	 An Alabama man pled guilty to conspiracy to
bursement, the buyer made one interest-only pay1                   commit loan fraud in connection with a
ment, and the loan defaulted immediately/ After                    $1,529,000 SBA-guaranteed loan used to fund the
liquidation of assets, the total loss to the bank and              sale of a business/ The $260,000 equity injection
the SBA exceeded $1/232 million/ The OIG’s Early                   that the buyer was required to pay was actually
Fraud Detection Working Group provided this refer1                 paid by the seller/ The buyer and seller created
ral/ This is a joint investigation with the U/S/ Postal            and submitted false bank statements, checks, and
Inspection Service/                                                certificate of deposit receipts to represent that the
                                                                   funds used to pay the equity injection were origi1
                          ***                                      nally a gift from the buyer’s grandmother/ The
                                                                   OIG’s Early Fraud Detection Working Group orig1
False Equity Injection Places                                      inally identified this loan for further review be1
Business Loan Programs at Risk                                     cause it had defaulted quickly with over
                                                                   $1,380,000 as the outstanding balance/
A borrower’s own financial stake in a business is                                        ***
known as equity (or capital) injection/ An individual
is less likely to default on a loan if he or she person1
ally has something at risk in the business/ When
lenders require an injection of such money into pro1




                                                           4
Arizona Man Pleads Guilty to Bank Fraud                       	 The loan brokerage company and its two owners
Conspiracy                                                        were each charged with bank fraud, conspiracy
                                                                  to commit bank fraud, money laundering, aid1
An Arizona man pled guilty to conspiracy to commit                ing and abetting, and criminal forfeiture, with
bank fraud/ He falsely obtained two mortgage loans                one owner having pled guilty to conspiracy to
and an SBA loan by using his father’s identity/ To                commit bank fraud/
get the loans approved, he falsely represented that
his father owned various properties and businesses,           	 The former Maryland title company owner and
had large amounts of cash on hand, and earned an                  the attorney were each charged with bank fraud,
annual salary of $110,000/ He also submitted altered              money laundering, aiding and abetting, and
bank statements and false rental agreements in con1               criminal forfeiture/ The loan brokerage compa1
junction with the loan applications/ The total loss               ny—referred to above—had specialized in se1
relating to the SBA Section 504 loan is over                      curing loans for individuals interested in pur1
$2,402,000/ This is a joint investigation with the FBI/           chasing or refinancing small businesses in the
                                                                  Mid-Atlantic area/ One brother encouraged
                         ***                                      prospective borrowers to use the company’s
Virginia Man Pleads Guilty to Conspiracy                          services to apply for SBA 7(a) business
Including Money Laundering                                        loans/ He and others allegedly submitted SBA
                                                                  loan applications and supporting documenta1
A Virginia businessman pled guilty to conspiracy to               tion containing fraudulent personal financial
defraud the United States, conspiracy to commit                   statements and monthly bank statements to
money laundering, and structuring currency transac1               loan originators and underwriters on behalf of
tions/ His earlier indictment stated that the United              the company’s clients/ The borrower’s net
States will seek a $17/7 million money judgment                   worth and equity injection amounts were over1
against him/ To satisfy this judgment, he will forfeit            stated on the documentation to falsely enhance
assets including bank accounts and real property/                 their creditworthiness/
The businessman engaged in a multi-million dollar
scheme involving bogus treasury checks and tax re1
                                                               	 Three individuals in Maryland were each sen1
                                                                  tenced for conspiracy to commit bank fraud/
turns/ He also misrepresented his citizenship status
                                                                  The first person received 36 months in prison
on Section 504 loan documents/ The OIG is con1
                                                                  and 3 years supervised release, and agreed to
ducting this investigation jointly with the FBI/
                                                                  $13,432,000 in criminal forfeiture/ The second
                         ***                                      person was sentenced to one year and one
                                                                  month in prison, 5 years supervised release, and
Multiple Legal Actions Result From
                                                                  over $216,400 in restitution/ She also agreed to
$100 Million Scheme
                                                                  $15,725,000 in criminal forfeiture/    The third
                                                                  person was sentenced to 36 months in prison, 5
Seven individuals and one company have been in1                   years supervised release, and over $1,888,200 in
dicted or sentenced during the reporting period in                restitution/ He agreed to a criminal forfeiture of
connection with a scheme to fraudulently obtain                   $18,764,900/ The three individuals had altered
SBA-guaranteed loans/ Specifically, a multiple-count              bank statements, cashiers’ checks, and Internal
superseding indictment charged a loan brokerage                   Revenue Service documents to make it appear
company and four individuals—the two brothers                     that the prospective borrowers had more money
who owned the company, a former owner of a Mary1                  for their equity injections than they actually
land title company, and an attorney who owns a Vir1
                                                                  did/ The OIG is conducting this investigation
ginia title company—for their role in the                         jointly with the FBI and the U/S/ Postal Inspec1
scheme/ The resulting losses totaled over $100 mil1               tion Service/
lion/




                                                          5
IPERA Reporting and the 7(a) Program

During this reporting period, the OIG’s Auditing
Division continued its review of SBA’s Improper
Payments reporting under the Improper Payments
Information Act and the Improper Payments Elimi1
nation and Recovery Act/ The OIG found that the
SBA underestimated its improper payment rate re1
lated to 7(a) Guaranty Purchases for FY 2011/

The OIG issued a report presenting the results of its
audit of the Small Business Improper Payment Rate
for 7(a) Guaranty Purchases for Fiscal Year 2011/ The
OIG audited the improper payment review process
that the SBA used to estimate its FY 2011 improper
payment rate on purchased loans to determine the
accuracy of the Agency’s estimate/ Specifically, the
OIG re-performed the SBA’s review of 30 guaranty
purchases totaling approximately $8/9 million from
the Agency’s sample of 303 guaranty purchases,
which totaled $129/5 million/ All of these purchases
were made between April 1, 2010, and March 31, 2011,
the period that the SBA used to perform its improp1
er payment review for FY 2011/

The OIG found that for 6 of the 30 sampled loans,
the SBA did not detect improper payments for esti1
mating its FY 2011 improper payment rate for 7(a)
guaranty purchases/ This occurred because improper
payment reviewers were unfamiliar with or misinter1
preted Agency policies, or did not have adequate
time to conduct reviews/ As a result, the SBA report1
ed an improper payment rate of 1/73 percent, or
$40/7 million, in its FY 2011 Agency Financial Report,
when the rate could have been as high as 20 percent,
or about $472 million/

                         ***




                                                         6
Disaster Loan Program


The Disaster Loan Program plays a vital role in the               and used Agency funds for living expenses and
aftermath of disasters by providing long-term,                    gambling/ He also received $150,000 from the
low-interest loans to affected homeowners, renters,               Louisiana Road Home program based on an
businesses of all sizes, and non-profit organizations.            application he filed for damages to a home he
                                                                  did not live in at the time of Hurricane Katrina/
There are two primary types of disaster loans.                    This is a joint investigation with the U/S/ De1
(1) physical disaster loans for permanent rebuilding              partment of Housing and Urban Development
and replacement of uninsured disaster-damaged                     OIG and the FBI/
privately owned real and/or personal property, and                                      ***
(2) economic injury disaster loans to provide neces1
sary working capital to small businesses until nor1           Elaborate Fraud Schemes Persist after Hurri-
mal operations resume after a disaster/ As part of a          canes Ike and Gustav
massive aid effort from Federal agencies, the SBA
approves billions of dollars in disaster assistance           Hurricanes Ike and Gustav in 2008 were two of the
loans/ Unfortunately, the need to disburse such               costliest natural disasters in U/S/ history/ As with
loans quickly may create opportunities for dishonest          other catastrophes, some individuals devised elabo1
applicants to commit fraud/                                   rate schemes to illegally profit from the crisis/ For
                                                              example, a former real estate broker and Houston
National Center for Disaster Fraud                            area bank director was sentenced to 108 months im1
                                                              prisonment and three years of supervised release,
The OIG, in conjunction with other law enforce1               and was ordered to pay a $30,000 fine/ He had been
ment organizations, formed what is now known as               approved for $999,700 in SBA home and business
the National Center for Disaster Fraud (NCDF)/                disaster loans/ The business loan was approved to
From FY 2006 through the first half of FY 2013, the           repair or replace more than 40 rental properties
OIG, in collaboration with the NCDF, has produced             damaged by Hurricane Ike/ However, he submitted
86 arrests, 95 indictments, and 93 convictions relat1         inflated and false invoices for repairs to his residence
ed to wrongdoing in SBA’s Disaster Loan program               and rental properties to the SBA’s Fort Worth (TX)
for the Gulf Coast hurricanes/ Moreover, OIG inves1           Processing and Disbursement Center (PDC)/ As a
tigations in the disaster area to date have resulted in       result of his subsequent effort to manipulate proper1
over $6/6 million in court-ordered restitution and            ty appraisals, the judge revoked his pre-trial release
related recoveries/ The OIG has also assisted the             and remanded him into custody for obstruction of
SBA in denying almost $4/5 million in loans to po1            justice/ This is a joint investigation with the Depart1
tentially fraudulent borrowers/                               ment of Homeland Security (DHS) OIG/ This case
                                                              was referred to the OIG by the PDC/
	 In one case, a Louisiana man pled guilty to                                      ***
    making a false statement/ He had obtained a               Texas Man Indicted for Conspiracy and Fraud
    $430,500 SBA disaster loan for the repair of his
    dental practice, which was destroyed by Hurri1            The former owner of a bowling alley was indicted for
    cane Katrina/ According to the SBA Loan Au1               conspiracy to commit offenses against the U/S/, fraud
    thorization and Agreement, his collateral in1             in connection with a major disaster, and making a
    cluded the property on which he would operate             false statement in connection with a federally in1
    a surgical practice, as well as the fixtures and          sured loan/ The SBA approved the man’s application
    equipment that he would purchase using loan               for a $998,500 disaster loan related to Hurricane
    funds/ However, the property to be used as                Humberto and an $885,600 disaster loan related to
    collateral was in disrepair, with no furnishings,         Hurricane Ike/ The owner allegedly submitted false
    fixtures, or equipment/ The man submitted                 and inflated construction contractor invoices, as well
    nearly $56,450 in fraudulent invoices to the SBA          as fabricated check payments supposedly made to



                                                          7
the contractor/ It is also alleged that some of the          Insufjcient Stafjng and Mobilization Strategies
payments actually made to the contractor by the              Impair SBA’s Disaster Readiness
SBA were kicked back to the owner for his use and
benefit/ This is a joint investigation with the FBI/         This report addressed the SBA disaster assistance
                                                             program’s stafjng and mobilization activities to de1
                         ***                                 termine its readiness to respond to a large-scale
                                                             event/ Specifically, the OIG examined whether the
Civil Settlement Results from Arkansas Fraud
                                                             SBA maintained a sufjcient workforce to respond to
                                                             a catastrophic event equivalent to the 2005 Gulf
An Arkansas man entered into a $200,000 civil set1
                                                             Coast Hurricanes/ The OIG determined that it
tlement with the U/S/ Attorney’s Ofjce (USAO) to
                                                             would be a challenge for the SBA to provide timely,
resolve issues involving a $180,400 SBA disaster loan
the man obtained for property damage supposedly              quality assistance to disaster victims during a catas1
sustained during the 2008 Arkansas flood/ The in1            trophe similar to the 2005 Gulf Coast Hurri1
vestigation determined that he made false claims to          canes/ Based on the Agency’s projections, the Ofjce
the SBA by claiming damages to his Arkansas prop1            of Disaster Assistance (ODA) would need to acquire
                                                             an additional 2,400 employees to respond effectively
erty when his primary residence was in Illinois at the
                                                             to a disaster of such magnitude/ The OIG also de1
time of the disaster/ The settlement stipulated that
                                                             termined that the ODA does not have a process or
the SBA would receive nearly $168,000 for the loan
balance and the USAO would receive over $32,000 in           written procedures to accurately identify the num1
civil penalties/                                             ber of reserve staff available to respond to disasters/
                          ***
                                                             The OIG recommended that the Agency (1) develop
Disaster Recovery Plan                                       a plan that ensures the biennial simulation exercise
                                                             includes an assessment of human capital necessary
In June 2008, Congress enacted the Small Business            to respond to the level of disaster selected for the
Disaster Response and Loan Improvements Act of               simulation exercise scenario, (2) implement a cor1
2008 (the Act)/ The Act placed new requirements on           rective action plan to address deficiencies identified
the SBA to better ensure it was prepared to respond          during the biennial simulations, (3) develop a pro1
to catastrophic disasters, which included a require1         cess that accurately identifies the total number of
ment for the SBA to conduct a disaster simulation            reserve staff available for mobilization and specifies
exercise at least once every two years/                      the frequency of such an analysis, and (4) develop
                                                             written procedures that define ODA’s process for
On April 7, 2010, the Agency conducted the Senior            determining the number of reserve staff available to
Leader’s Seminar and Tabletop Exercise to test the           respond to disasters/
Disaster Recovery Plan and the SBA’s readiness to
respond to disasters from multiple perspectives/                                      ***
During this reporting period, the OIG issued a re1
port related to the SBA’s Disaster Recovery Plan that
included one finding and four recommendations

                         ***




                                                         8
Procurement !ssistance

Small Business Development & Contracting Programs
	
The SBA works to maximize opportunities for small,             The individuals involved have thus far pled guilty to
woman or minority-owned, and other disadvantaged               bribery, conspiracy, money laundering, and other
businesses to obtain federal contract awards through           charges/ They include a government ofjcial, execu1
its government contracting programs/ These pro1                tives of 8(a) contractors, and employees of the ANC
grams include, among others, the Historically Un1              contractor/ This is a joint investigation with the FBI,
derutilized Business Zone (HUBZone) Empowerment                Internal Revenue Service (IRS) Criminal Investiga1
Contracting Program and the Section 8(a) Business              tion (CI), U/S/ Army Criminal Investigation Com1
Development Program/                                           mand (CID), and the Defense Criminal Investigative
                                                               Service (DCIS)/ The following legal actions illustrate
The SBA also negotiates with other federal agencies to         the extent and complexity of the conspiracy/
establish agency-specific goals for small business con1
tracting with small, disadvantaged, women-owned,               	 The owner of a Virginia construction manage1
service-disabled veteran-owned, and HUBZone busi1                  ment firm was sentenced to 70 months of incar1
nesses/ The current government-wide goal is for                    ceration, 36 months of supervised release, and
small businesses to receive 23 percent of the total val1           over $9/4 million in joint restitution/ The man
ue of prime contracts awarded each fiscal year/                    had conspired to conduct financial transactions
                                                                   and to conceal from law enforcement and tax
To help small disadvantaged businesses gain access to              authorities the proceeds of a bribery scheme/
federal and private procurement markets, the SBA’s                 He also conspired to use such proceeds unlaw1
Section 8(a) Business Development Program offers a                 fully to obtain real property, vehicles, and luxury
broad range of business development support, such as               items for his personal benefit/ Finally, he caused
mentoring, procurement assistance, business counsel1               his firm to submit fictitious purchase orders and
ing, training, financial assistance, surety bonding, and           invoices to a prime contractor in order to obtain
other management and technical assistance/                         payments from the U/S/ Army Corps of Engi1
                                                                   neers (USACE) for government contracts/ The
The SBA also provides assistance to existing and pro1              prime contractor is an SBA-certified ANC pro1
spective small businesses through a variety of coun1               gram participant/
seling and training services offered by partner organi1
zations/ Among these partners are Small Business               	 The president of a Maryland technology firm
Development Centers (SBDCs), the Service Corps of                  was sentenced to 33 months of incarceration, 36
Retired Executives (SCORE), and Women’s Business                   months of supervised release, and nearly
Centers (WBCs)/ Most of these are grant programs                   $985,000 in restitution/ The man had used the
that require effective and efjcient management, out1               firm to directly and indirectly pay approximately
reach, and service delivery/                                       $626,000 of fraudulent proceeds to a USACE
                                                                   program manager/ Subsequently, the program
Major Bribery Case Involving Over                                  manager directed the business to retain approxi1
$2 Billion in U;S; Army Corps of Engineers                         mately $245,000 of the fraudulent proceeds/
(USACE) Contracts Continues                                        The business is an SBA-certified 8(a) program
                                                                   participant/
An ongoing multi-agency investigation thus far has
resulted in 8 individuals having been sentenced and 16         	 The director of contracts of an ANC was sen1
individuals and one company having been charged in                 tenced to 87 months of incarceration, 36 months
a scheme involving more than $30 million in bribes                 of supervised release, and over $9/4 million in
and kickback payments/ The conspiracy included the                 restitution to be paid jointly and severally with
use of a $1/3 billion Alaska Native Corporation (ANC)              two co-conspirators/ The director had given,
sole source contract to pay for the bribes and the                 offered, and promised over $7 million, directly
planned steering of a $780 million government con1                 and indirectly, to the USACE program manager
tract to a favored Section 8(a) program participant/               in return for his approval of contracts and sub1


                                                           9
    contracts through the USACE and the ANC to a              	 Three ofjcers of technology firms and one of
    construction management firm/ In addition,                    the firms itself were charged in connection
    the director of contracts, as a prime contractor              with the bribery scheme involving USACE ofj1
    employee, solicited, accepted, and attempted to               cials and their preferential treatment for 8(a)
    accept kickbacks in excess of $1 million from                 contracts/ First, an ofjcer was charged with
    subcontractors in exchange for awarding con1                  bribery of a public ofjcial, conspiracy to com1
    tracts and providing favorable treatment/                     mit bank fraud, aiding and abetting, and caus1
                                                                  ing an act to be done/ He was also charged
	 The owner of two technology firms was sen1                     with defrauding lenders by obtaining mort1
    tenced to 27 months incarceration, 36 months                  gage loans on properties using false loan appli1
    supervised release, and 500 hours of community                cations, forged documents, and fraudulent
    service/ The owner and others enriched them1                  settlements to generate large cash proceeds/
    selves through awards made by the USACE to                    He later pled guilty/ Second, an 8(a) company
    the two firms/ He gave the program manager                    was charged with conspiracy and bribery of a
    $290,000 in return for approving the award of                 public ofjcial/ Third, the president of that
    contracts and subcontracts to the two firms,                  company was charged with conspiracy to com1
    one of which is an SBA-certified 8(a) program                 mit bribery of a public ofjcial/ Finally, an
    participant/                                                  ofjcer of another firm was charged with con1
                                                                  spiracy to commit wire fraud/ He later pled
	 A Maryland business owner was sentenced to 24                  guilty/
    months of incarceration, 36 months of super1                                      ***
    vised release, and nearly $612,000 in restitution
    to be paid jointly and severally with two other           To gain preferences in obtaining federal contracts,
    defendants/ He and others had conducted fi1               some businesses misrepresent their eligibility for
    nancial transactions in an effort to conceal bribe        the Service-Disabled Veteran-Owned Small Busi1
    payments from law enforcement and tax au1                 ness (SDVOSB), Historically Underutilized Busi1
    thorities/ The bribe payments were made to                ness Zone (HUBZone), and Section 8(a) Business
    USACE ofjcials in return for preferential treat1          Development Programs/ Investigations by the OIG
    ment on 8(a) contracts/ He had conspired to               and other federal organizations have identified
    unlawfully transmit or cause to be transmitted            schemes in which companies owned or controlled
    nearly $612,000/ Of that amount, his company              by non-disadvantaged persons falsely claim to be
    retained over $83,000 and paid approximately              disadvantaged firms or use actual disadvantaged
    $528,500 to his brother, who was a USACE ofj1             firms as fronts/ The following cases demonstrate
    cial/                                                     the nature of the problem.

	 The son of a former USACE program manager                  	 The co-owner of a Massachusetts construction
    was sentenced to 37 months of incarceration, 36               firm was indicted for wire fraud and conspira1
    months of subsequent supervised release, and                  cy to defraud the United States/ Allegedly the
    $401,000 in restitution/ He had conspired with                company falsely claimed SDVOSB status and
    his father to launder the proceeds of this                    has been awarded over $100 million in
    scheme/ His father, as a public ofjcial, had re1              SDVOSB set-aside contracts/ Moreover, the co
    ceived and accepted things of value personally                -owner is alleged to have falsely certified that
    and for other persons in return for funding and               service-disabled veterans were the president
    approving contracts/ The father also provided                 and majority owner(s) of the firm when he was
    preferential treatment to these contractors and               the one who actually founded and operated
    subcontractors for contracts awarded and to be                the business/ He is neither veteran nor service
    awarded through the USACE/                                    -disabled/ This is a joint investigation with the



                                                         10
    Department of Veterans Affairs (VA) OIG, Gen1                build a courthouse in Kentucky and to complete
    eral Services Administration (GSA) OIG, and                  maintenance/repairs to Army facilities/ One firm
    Army CID/                                                    submitted an application to the SBA representing
                                                                 itself as a small business with its principal place
 The owner of a Kansas construction firm was                    of business in a HUBZone even though the firm’s
    sentenced to 87 months in prison and 3 years of              ofjce identified on the application was vacant
    supervised release in addition to a personal for1            ofjce space with no employees/ The firm actually
    feiture judgment of over $6/8 million/ He had                operated out of the second business’s headquar1
    previously pled guilty to conspiracy, major pro1             ters, which was not located in a HUBZone area/
    gram fraud, wire fraud, money laundering con1                Neither owner disclosed that the first business
    spiracy, and making false statements/ He and                 did not operate as an independent company but
    his business fraudulently claimed SDVOSB sta1                instead shared facilities, equipment, personnel,
    tus to obtain 11 federal government contracts                insurance, and bonding with the second firm/
    valued at approximately $6/8 million, which                  This is a joint investigation with the DCIS/
    they would otherwise not have been entitled to
    receive/ The owner also admitted to providing
    the VA contracting ofjcer with a fraudulent
                                                              Five individuals pled guilty to various charges in
                                                                 connection with fraudulently obtaining over
    résumé in which he claimed to have served
                                                                 $31 million dollars in 8(a) and small business set-
    three tours in Southeast Asia as a highly deco1
                                                                 aside contracts/ The principals of two Virginia
    rated U/S/ Army ofjcer/ Government records
                                                                 companies had falsely represented to the govern1
    showed that he never left Missouri during his
                                                                 ment that one firm was eligible for the 8(a) pro1
    service in the Army and Missouri National
                                                                 gram when it really was operated and controlled
    Guard/ This is a joint investigation with the GSA
                                                                 by the second firm/ The former owner of the
    OIG, the VA OIG, and DCIS/
                                                                 second (and controlling) firm pled guilty to major
                                                                 fraud against the Government and conspiracy to
 The owner of a Texas firm was indicted for wire                commit bribery in connection with paying a DHS
    fraud and aggravated identity theft/ A referral              employee $50,000 to help the first firm obtain
    from the GAO alleged that the firm was falsify1              DHS contracts/ He also agreed to forfeit $6/3
    ing documents to establish its status as an                  million in proceeds of the crime/ In addition, the
    SDVOSB and as an architectural and engineer1                 former president of the same firm pled guilty to
    ing firm/ The owner allegedly falsified the cre1             major fraud against the Government, and the
    dentials of his company’s engineers, as well as              firm’s former vice president and chief financial
    his company’s ofjce locations, number of em1                 ofjcer each pled guilty to conspiracy to commit
    ployees, and past projects/ The VA awarded the               major fraud against the Government/ Finally, the
    firm an SDVOSB set-aside contract and ten                    former owner of the first firm pled guilty to major
    task orders with a cumulative value of nearly                fraud against the Government and agreed to for1
    $1/6 million/ The OIG is conducting this investi1            feit $1/2 million in proceeds of the crime/ This is a
    gation jointly with the VA OIG/                              joint investigation with the National Aeronautics
                                                                 and Space Administration OIG, DCIS, and DHS
 Two firms and their owners agreed to pay                       OIG/
    $6,250,000 to resolve allegations that they sub1
    mitted false statements to the SBA and false                                       ***
    claims to the U/S/ Army/ The settlement re1
    solves allegations that the companies and their
    owners made false statements to the SBA to
    obtain certification as a HUBZone company/
    The firms and their owners then used this certi1
    fication to wrongfully obtain Army contracts to



                                                        11
Benefits of Mentor Protégé Joint Ventures are                         Approval of SBDC Surveys
Unknown: Robust Oversight is Needed to
Avoid Abuse and Assure Success                                        In December 2004, Congress amended the Small
                                                                      Business Act to restrict the disclosure of infor1
In an audit of the SBA’s Mentor Protégé Program,                      mation regarding individuals or small businesses
the OIG found that the SBA lacked performance                         that have received assistance from a Small Business
measurements for joint venture arrangements and                       Development Center (SBDC), and further restrict
did not effectively oversee 8(a) firms that have joint                the Agency’s use of such information/ The provision
venture agreements/ As a result, the SBA did not                      also re-quires the Agency to issue regulations
have the information necessary to determine                           regarding disclosures of such information for use in
whether mentor protégé joint ventures benefitted                      conducting financial audits or SBDC client surveys/
the 8(a) participant/                                                 In 2009, the Agency represented to the OIG that it
                                                                      would issue regulations as required by the statute,
This lack of information weakened SBA’s ability to                    and later prepared proposed regulations/ However,
effectively oversee and assess the development of                     the Agency has not yet issued these regulations/
8(a) participants with mentor and protégé joint
venture agreements and increased the risk of pro1                      In addition, the Small Business Act states that,
gram abuse by participants/                                           until the issuance of such regulations, any SBDC
                                                                      client survey and the use of such information shall
The OIG made six recommendations that included                        be approved by the Inspector General, who shall
developing measurable outcomes, oversight proce1                      include such approval in the OIG’s Semiannual
dures, and an information system to ensure that                       Report to Congress/ According to a report from the
protégés benefitted from joint venture agreements/                    Agency, the SBA conduct a survey of SBDC clients
The OIG also provided a sample evaluation model,                      using a form cleared by the OIG during the first
as provided below/                                                    half of FY 2013/
                        ***                                                                   ***


Sample Model for Evaluating Joint Venture Agreements' Components

Contexts                       Inputs                    Program Processes        Program Results
(program setting)              (available resources)

Legal Authorities              The Joint Venture         Approval of Mentor-      Output- Contract Deliv1
                               Agreement (allows the     Protégé agreement        erables Completed
                               establishment of the
                               relationship)

Program Purpose-To develop Servicing by Specialists      Approval of joint ven1   Outcome- Capacity to
the protégés’ lacking capaci1 to 8(a) Firm               ture agreement           perform the contracts
ty (i/e/ management, labor,                                                       and capabilities gained by
equipment)                                                                        the Protégé, e/g/,

Internal Controls-SOP, Code Operational Database         Internal Controls-SOP,       enhanced contract
of Federal Regulations (CFR) to track the program        CFR, Annual Reviews           negotiation tech1
Requirements, Authorization                                                            niques, project man1
and Annual Reviews                                                                     agement skills for
                                                                                       larger projects,

Split Oversight Responsibil1   Sufjcient and Qualified   Specialists monitor          proposal prepara1
ity- Program Management        Staff                     whether mentors pro1          tion, learning more
and Field Operations                                     vide capacity needs to        complex accounting
                                                         the joint venture ar1         systems, etc/
                                                         rangements

                                                                12
!gency Management


Agency management includes activities of the Ofjc1            SBA’s requirements/ Further, the COR and Con1
es of the Chief Financial Ofjcer (CFO), the Chief             tracting Ofjcer (CO) did not review and approve the
Information Ofjcer (CIO), and Management and                  OIT invoice for the reconfiguration work in accord1
Administration/ These activities encompass finan1             ance with federal and SBA’s policy/
cial reporting and performance management, hu1
man resources, procurements and grants, space and             The OIG made four recommendations that include
facilities, and maintenance of the SBA’s information          implementing procedures for invoice review, main1
systems and related security controls/                        taining supporting documentation of contract ac1
                                                              tions, and initiate appropriate administrative ac1
Former SBA Employee Sentenced for Purchase                    tions/
Card Misuse                                                                          ***
An Alabama woman formerly employed by SBA was
                                                              The SBA’s 417 Unauthorized Commitments
sentenced to 4 months incarceration, 36 months
                                                              Impacted Mission-Related Services and
supervised release (including four months of home
                                                              Increased Costs
detention), and almost $50,000 in restitution after
pleading guilty to fraud by wire/ The investigation
                                                              During this reporting period, the OIG issued a sec1
revealed that she had made over $30,000 of personal
                                                              ond report pertaining to the Small Business Admin-
and unauthorized purchases by using the SBA Ala1
                                                              istration’s Unauthorized Commitments/ The first
bama District Ofjce’s government purchase card/
                                                              report addressed four unauthorized commitments
She also filed about 59 false travel vouchers, result1
                                                              associated with an expired postage meter contract
ing in her receipt of almost $22,000 from the SBA
                                                              for which the SBA ratified the unauthorized commit1
that she should not have received/ Finally, she made
                                                              ments without determining whether unobligated
unauthorized purchases on her government travel
                                                              funds were available when the unauthorized com1
card of over $3,300/
                                                              mitment initially occurred/ In the second report,
                         ***                                  the OIG determined that the SBA received invoices
                                                              associated with 417 unauthorized commitments,
SBA’s Inappropriate Contracting Practices to                  valued at more than $1/4 million between November
Reconfigure Space for the Ofjce of Internation-               2010 and May 2012/
al Trade
                                                              The OIG found that the total number of unauthor1
The OIG issued an advisory memorandum present1                ized commitments at the SBA— in the last two fiscal
ing the results of the audit of the SBA’s procurement         years— greatly exceeded the total number of unau1
process used to reconfigure space for the Ofjce of            thorized commitments at six other federal agencies
International Trade (OIT)/ This was the second of             of a similar size/ Further, the OIG believes that the
two audit reports related to the reconfiguration of           417 unauthorized commitments directly affected the
OIT’s ofjce space/ The first report addressed the             ability of the Agency to procure goods and services
SBA’s inappropriate use of the government purchase            for its daily operations legally and efjciently, and
card for construction purchases/ Specifically, SBA            limited its ability to provide needed support to small
personnel with purchase card authority had inappro1           businesses/ Lastly, the process of ratifying the large
priately purchased $34,044/77 in construction trans1          number of unauthorized commitments required
actions at the SBA Washington, DC area ofjces/ In             additional staff resources and increased operating
the second report, the OIG determined that the                costs for the Acquisition Division/ The OIG recom1
Contracting Ofjcer’s Representative (COR) inappro1            mended seven actions to improve contract manage1
priately authorized the use of an existing contract to        ment at the SBA and significantly decrease the total
complete the OIT reconfiguration, and in doing so             number of future unauthorized commitments/
exceeded his authority/ Additionally, the COR did
not develop a Statement of Work to ensure the re1                                      ***
quested work was completed in accordance with

                                                         13
The SBA Mismanaged Certain 8(a) Information                   SBA Gift Authority
Technology Contracts
                                                              Section 4(g)(2) of the Small Business Act, as amend1
During this reporting period, the OIG issued the third        ed, provides that any gift, devise, or bequest of cash
report on the SBA’s Procurement of Information                accepted by the Administrator under Section 4(g)
Technology Hardware and Software from Isika Tech1             shall be held in a separate account and shall be sub1
nologies, Inc/ (iTechnologies)/ The first report ad1          ject to semiannual audit by the Inspector General,
dressed the planning and award of contracts to                who shall report his findings to Congress/ According
iTechnologies, while the second report addressed              to the SBA’s Ofjce of Strategic Alliances, the SBA
whether SBA ofjcials properly funded contracts                accepted one cash gift in the amount of $10,000 dur1
awarded to iTechnologies for the procurement of IT            ing this semiannual reporting period/ The OIG will
hardware and software/ The third report addressed             audit this gift in accordance with Section 4(g)(2)/
whether the prime contractor and its subcontractor
performed contract requirements in accordance with            In compliance with the Small Business Act, the OIG
8(a) program policies, guidance, and statutory re1            conducted an audit of the cash gift of $16,786 that
quirements/ The OIG also determined whether the               was recorded in the Business Assistance Trust Fund
SBA’s contracting personnel administered IT con1              (BATF) during the previous reporting period/ That
tracts in accordance with federal and SBA policies,           report is under review and pending issuance/
guidance, and statutory requirements/
                                                                                       ***
The OIG found that the SBA did not adequately man1
age IT hardware and software contracts awarded to             Cosponsorships and Fee-Based Administration-
iTechnologies/ Specifically, the OIG determined that.         Sponsored Events

 Contractor misrepresentations and contracting               Section 4(h) of the Small Business Act, as amended,
personnel’s lack of due diligence caused the SBA to           requires the OIG to report to Congress on a semi-
inappropriately award and administer 8(a) contracts           annual basis regarding the Agency’s use of its author1
to iTechnologies/                                             ity in connection with cosponsorships and fee-based
 Contracting personnel at the SBA did not proper1            Administration-sponsored events/ The SBA’s Ofjce
ly administer the contracts, as they did not conduct          of Strategic Alliances provided information to the
price reasonableness analyses for contracts awarded           OIG related to co-sponsorships, including the names,
to iTechnologies/                                             dates, and locations of the cosponsored events and
                                                              the names of the cosponsors/ This information was
 Deficiencies within the SBA’s invoicing proce1
                                                              not verified by the OIG/ As shown in Appendix IX,
dures established an environment susceptible to im1
                                                              between October 1, 2012, and March 31, 2013, the Ad1
proper payments/
                                                              ministrator—through her approved designees—fully
                                                              executed 57 cosponsorship agreements/
As a result, the SBA overpaid for IT hardware and
software by approximately $343,854/ Further, the SBA
                                                                                       ***
improperly paid 100 percent of iTechnologies’ invoic1
es/ To address these findings the OIG made 15 specific
recommendations/

                         ***




                                                         14
Each year, the OIG contracts with an Independent                 Management Letter
Public Accounting (IPA) firm to conduct the annual
audit of the Small Business Administration’s consoli1            On December 12, 2012, the OIG issued the Manage1
dated financial statements and accompanying reports              ment Letter-SBA’s FY 2012 Financial Statement Audit/
on internal control and compliance with the laws and             The IPA’s management letter includes information
regulations for the fiscal year ending September 30,             related to non-reportable findings discovered during
2012/ Three separate documents are provided in sup1              the IPA’s audit of SBA’s FY 2012 financial statements/
port of this work, including the Financial Statements
Audit Report, the Management Letter, and the Special
                                                                 The IPA noted 12 matters involving internal controls
Purposes Financial Statements
                                                                 and other operational matters that included. (1) inad1
Audit Report/
                                                                 equate review of SBA’s return on assets re-estimate
                                                                 cash flow models- (2) improvement needed in the
Financial Statements
                                                                 documentation of the obligations review process- (3)
                                                                 inadequate controls over the 7(a) 1502 error process-
The OIG contracted with an independent public ac1
                                                                 (4) inadequate documentation of policies and proce1
counting (IPA) firm to audit the SBA’s consolidated
                                                                 dures for the microloan program- (5) loan file docu1
financial statements as of September 30, 2012, and for
                                                                 mentation not retained in loan files- (6) untimely
the years then ended/
                                                                 processing of Microloan transactions and improper
The auditor’s report includes an opinion on SBA’s                intermediary lending pilot program disbursements-
financial statements, internal control over financial            (7) untimely site visits for loan defaults- (8) untimely
reporting, and compliance and other matters that                 processing of charge-off loans- (9) untimely post-
have a direct and material effect on the financial state1        purchase and charge-off reviews- (10) inadequate and
ments/ The auditor issued an unqualified opinion on              untimely follow-up on corrective actions- (11) im1
SBA’s fiscal year 2012 consolidated financial state1             provement needed in time and attendance authoriza1
ments/ In summary, the auditor found.                            tion, review, and certification processes, and (12) im1
                                                                 provement needed in the employee separation pro1
	 The financial statements were fairly presented, in            cess/ The IPA made 25 recommendations to which
    all material aspects, in conformity with U/S/ gen1           agency ofjcials or designees agreed to implement or
    erally accepted accounting principles and no ma1             have already taken action to address the underlying
    terial weaknesses in internal control existed/               conditions/
	 A significant deficiency related to SBA’s infor1
    mation technology security controls, which is a              Special-Purpose Financial Statements
    repeat condition/
                                                                 The IPA issued its Independent Auditors’ Report on
	 One instance of noncompliance with laws and                   the SBA’s reclassified balance sheet as of September
    regulations related to the Debt Collection Im1               2012 and 2011, and the reclassified statements of net
    provement Act of 1996, which is also a repeat                costs and changes in net position and Federal trading
    condition/                                                   partner note for the year then ended/ The auditor
                                                                 found that the statements, including the Federal
The OIG provided a draft of the auditor’s report to              trading partner note, presented fairly in all material
SBA’s Chief Financial Ofjcer (CFO) who concurred                 respects, the financial position of the SBA as of Sep1
with its findings and recommendations and agreed to              tember 30, 2012 and 2011/ Also, the results of opera1
implement the 24 recommendations/                                tions and the changes in net position for the period
                                                                 then ended are in accordance with U/S/ generally ac1
                                                                 cepted accounting principles, and in conformance
                                                                 with the requirements of the Treasury Financial Man1
                                                                 ual, Part 2, Chapter 4700/

                                                                                           ***

                                                            15
Improvements in IT Security Found During                          The SBA’s Loan Management and
Federal Information Security Management Act                       Accounting System—Incremental
Review
                                                                  Improvement Projects
Each year, the OIG reports on the effectiveness of the
Agency’s information security program in accordance               During this reporting period, the OIG completed its
with OMB criteria/ For FY 2012, the OIG was required              review of the SBA’s efforts to modernize its Loan
to report on the. 1) continuous monitoring manage1                Management System and migrate off the mainframe
ment- 2) configuration management- 3) identity and                environment/ Since 2004, a significant management
access management- 4) incident and response report1               challenge facing the SBA has been the modernization
ing- 5) risk management- 6) security training- 7) plan            of the loan accounting process/
of actions and milestones- 8) remote access manage1
ment- 9) contingency planning- 10) contractor sys1                The OIG found that the SBA successfully migrated
tems, and 11) security capital planning/                          the data-entry of over 44% of its loan and lending
                                                                  transactions from mainframe data-entry to web-
The OIG found that the SBA continues to show im1                  based data-entry/ This was the first step in fully mi1
provement in its IT Security Program/ Specifically, the           grating off SBA’s legacy mainframe and utilizing up1
SBA showed improvement in the areas of incident                   dated technology/ During the review, the OIG also
response and risk management, continues to meet                   found that the.
requirements in the area of security capital planning,
and needs to make significant improvement in the                  	 SBA did not have an incremental improvement
area of configuration management/                                     project to migrate its newly created COBOL code
                                                                      into production/
                                                                     Root Cause Analysis Project was altered from its
Status of FISM! Compliance !reas at the End of FY 2012
                                                                      initially approved project/
Continuous Monitoring                                               User Interface Migration Project screens were
                                                                      not security tested and validated/
Configuration Management                                 
                                                                     Quality Assurance and Independent Verification
Identity Management                                                  and Validations programs did not exist/
Incident Response                                        
                                                                  The OIG issued five findings that put the develop1
Risk Management                                                  ment of this project at risk for not meeting the needs
Security Training                                                and expectations of the SBA, the OMB, and Congress/
                                                                  The OIG also issued six recommendations/
POA&M                                                    
                                                                                           ***
Remote Access                                            

Contingency Planning                                     

Contractor Systems                                       

Security Capital Planning                                


    Fully Met Mostly met Partially met        Not met




                                                             16
IPERA                                                           Notwithstanding these accomplishments, further
                                                                improvement is still needed in the effectiveness and
The Improper Payments Information Act of 2002                   development of SBA improper payment controls and
(IPIA) requires agencies to review and identify those           processes for all the programs or activities/
programs susceptible to significant improper pay1
ments- report on the amount and causes of improper              The OIG also assessed whether the SBA complied
payments- and develop plans for reducing improper               with IPERA reporting requirements, as specified in
payments/ Provisions of the Improper Payments                   OMB guidance/ This guidance requires a limited
Elimination and Recovery Act of 2010 (IPERA) amend1             review of controls over Agency reporting/ The OIG
ed the IPIA by providing alternative improper pay1              found that the SBA generally met all the IPERA
ments measures, expanding the requirements for cor1             reporting requirements/ However, the Disaster Assis1
rective action plans, and increasing the scope of re1           tance Loan Program was not compliant since its im1
capture audits for all payments and program activities          proper payment rate exceeded the 10 percent thresh1
in excess of $1 million/ The IPERA guidance further             old/ In addition, three of the five programs or activi1
requires that each OIG annually review its agency’s             ties did not achieve their annual reduction targets/
improper payments reporting within 120 days of issu1            The OIG’s review of the SBA’s reported improper
ing its Agency Financial Report (AFR)/                          payments for acquisitions identified discrepancies in
                                                                that certain payments with documentation errors
During this reporting period, the OIG evaluated the             were excluded from those calculations/ Agency
adequacy of SBA’s compliance with IPERA and OMB’s               representatives have not adequately explained these
implementing guidance/ Specifically, the OIG deter1             exclusions/
mined whether the SBA addressed required provi1
sions and performed limited testing of compliance               IPERA Evaluation by Program or Activity
with these provisions/ The OIG also reviewed the
completeness of improper payments disclosures in                                                                Overall
the SBA's Agency Financial Report for FY 2012, and                   SBA Program or Activity                    FY 2012
                                                                                                              Assessment
assessed the Agency’s efforts to prevent and reduce
improper payments/                                              Disbursements and Contracting                     

The OIG found that the SBA was generally compliant              7(a) Loan Guaranty Approvals                      
in meeting the minimum requirements, in accordance
                                                                7(a) Loan Guaranty Purchases                      
with OMB guidance/ Further, the OIG found that the
SBA’s efforts to prevent and reduce improper pay1               504 Loan Guaranty Approvals                       
ments have resulted in significant progress since the
FY 2011 assessment/ Specifically, the Disaster Assis1
                                                                Disaster Loan Disbursements                       
tance Loan Program made progress through the de1                Legend
ployment of improved controls and process improve1                 Outstanding Progress  Substantial Progress
                                                                   Limited Progress      No Progress
ments, which reduced its improper payments rate
from 28/4 percent in FY 2011 to 17/9 percent in
FY 2012/
                                                                                              ***
In addition, the 7(a) and 504 programs improved
their testing procedures for loan guaranty approvals/
The revised procedures were more robust and led to
the identification of more improper payments during
the testing process/ As a result, the improper     pay1
ments estimate increased from $0 in FY 2011 to
$233 million and $105 million, respectively, in FY 2012/


                                                           17
Other Significant OIG !ctivities


Character Screening Lessens Potential                           integrity/ The OIG regularly identifies individuals
Fraud                                                           and organizations for debarment and other enforce1
                                                                ment actions and submits detailed recommendations
                                                                with supporting evidence to the responsible SBA
Participants in SBA programs that encompass busi1
                                                                ofjcials/ Most OIG administrative referrals involve
ness loans, disaster assistance loans, Section 8(a)
                                                                the abuse of SBA’s loan and preferential contracting
certifications, surety bond guarantees, SBICs, and
                                                                programs/ Where appropriate, the OIG recommends
CDCs must meet Agency character standards/ To
                                                                that the SBA suspend the subject of an ongoing OIG
help accomplish this, the OIG’s Ofjce of Security
                                                                investigation given program risk presented by the
Operations utilizes name checks and, where appro1
                                                                continued participation of those individuals and en1
priate, fingerprint checks to determine criminal
                                                                tities/
background information/ During this reporting peri1
od, the OIG processed 2,382 external name check                 During this reporting period, the OIG sent 16 sus1
requests for these programs/                                    pension and debarment referrals to the SBA/ Addi1
                                                                tionally, OIG investigations resulted in 13 suspension
In addition, the OIG refers applicants who appear               or debarment actions at other agencies/ The SBA
ineligible because of character issues to program ofj1          OIG also referred several other entities for program
cials for adjudication/ As a result of OIG referrals            termination and other administrative enforcement
during this reporting period, SBA business loan pro1            actions/ (The Statistical Highlights section of this
gram managers declined 19 applications totaling                 Report contains additional suspension and debar1
nearly $13/2 million, and disaster loan program ofj1            ment statistics/)
cials declined 21 applications totaling nearly $1/4 mil1
lion/ Moreover, the Section 8(a) program declined               The following paragraphs provide examples of OIG
five applications for admission/                                referrals for administrative enforcement actions and
                                                                other actions during the reporting period/
During this reporting period, the OIG initiated 167
background investigations and issued 14 security                8(a) Contractor and Individual Suspended
clearances for SBA employees and contractors/ Like1
                                                                The SBA suspended an 8(a) contractor and individual
wise, the OIG adjudicated 83 background investiga1
                                                                associated with that contractor for allowing the 8(a)
tive reports and coordinated with SBA’s Ofjce of
                                                                contractor to be used as a pass-through entity/ The
Disaster Assistance to adjudicate 40 derogatory back1
                                                                contractor had obtained a contract set-aside for partici1
ground investigation reports/ Finally, the OIG pro1
                                                                pants in the 8(a) Business Development Program, but
cessed 2,084 internal name check requests for SBA               then allowed a subcontractor to perform all of the work
activities such as success stories, “Small Business             on the subcontract in violation of the 8(a) contractor’s
Person of the Year” nominees, and disaster assistance           percentage of work requirement/ Use of 8(a) contrac1
new hires/                                                      tors as front companies, such as this instance, deny
                                                                legitimate program participants contract and develop1
                          ***                                   ment opportunities.

Suspensions, Debarments, and Other                              Contractor and Contractor’s President Referred
Enforcement Actions                                             for Debarment due to HUBZone Misrepresenta-
                                                                tions
As a complement to the OIG’s criminal and civil                 The OIG referred a contractor and the president of that
fraud investigations, the OIG continually promotes              contractor for debarment based upon the president’s
the use of suspensions, debarments and other ad1                conviction for wire fraud/ The president admitted to
ministrative enforcement actions/ These actions                 submitting false information on behalf of another com1
protect taxpayer funds from those who have engaged              pany in order to have that other company qualified for
in fraud or otherwise exhibited a lack of business              the HUBZone program/ The HUBZone company was
                                                                previously referred for debarment/


                                                           18
Other Administrative Enforcement Actions                         Regulation Policy Reviews and Fraud
                                                                 Briefings
In response to a management challenge issued by the
OIG, the Agency updated its procedures during the
                                                                 Reviews of Proposed Agency Regulations
reporting period for program revocation actions un1
der 13 CFR Part 103/ This regulation is principally
                                                                 As part of the OIG’s proactive efforts to promote
designed to exclude loan agents and others, who
                                                                 accountability and integrity and reduce inefjcien1
commit fraud or other wrongdoing, from participat1
                                                                 cies in SBA programs and operations, the OIG re1
ing in SBA small business financial assistance pro1
                                                                 views changes that the SBA proposes to make to its
grams/
                                                                 program directives such as regulations, internal op1
                                                                 erating procedures, agency policy notices, and SBA
Other OIG investigations during the past decade
                                                                 forms completed by the public/ Frequently, the OIG
have identified loan agent fraud on several hundred
                                                                 identifies material weaknesses in the proposed revi1
million dollars of SBA-backed loans/ Additionally,
                                                                 sions and works with the Agency to implement rec1
the SBA has added a section to its website that iden1
                                                                 ommended revisions to promote controls that are
tifies agency-specific and government-wide adminis1
                                                                 more effective and deter waste, fraud, or abuse/
trative enforcement actions/ The site now identifies
                                                                 During the reporting period, the OIG reviewed 53
individuals and entities that have been subject of a
                                                                 proposed revisions of these program directives and
program revocation action under Part 103 and gov1
                                                                 submitted comments designed to improve 28 of
ernment-wide suspension and debarment actions the
                                                                 these initiatives/
SBA has imposed/

Misrepresentation as an SBA Lender Results in                    For example, during the reporting period, OIG rec1
Enforcement Action Referral                                      ommendations on procedures and forms used by the
                                                                 8(a) Business Development Program and on pro1
The OIG referred an individual who falsely represented           posed subcontracting regulations led to improved
himself as an SBA lender to the Agency for revocation            controls to enhance program oversight and deter
under Part 103/ This individual had inappropriately              fraud and wrongdoing by program participants and
obtained fees from borrowers seeking SBA loans/ The              contractors/
SBA revoked this individual’s authority to participate in
SBA programs for a period of five years as a result of           The OIG also provided comments on several regula1
this referral/                                                   tions and directives for SBA’s small business finan1
                          ***                                    cial assistance programs to clarify ambiguous re1
                                                                 quirements and enhance program oversight capabili1
Training Institute Suspension and Debarment                      ties/ This included significant comments aimed at
Course                                                           improving the Agency’s procedures for servicing and
                                                                 liquidating loans made under the 7(a) and Section
During the reporting period, OIG representatives                 504 loan programs and deterring fraud and other
helped to provide suspension and debarment training              misconduct in these programs/ The OIG also pro1
to auditors, inspectors, evaluators, and attorneys               vided extensive comments on SBA internal procure1
throughout Federal OIGs in coordination with the                 ment procedures, which has been the subject of a
Council of the Inspectors General on Integrity and Efj1          number of recent OIG audit reports/ In addition,
ciency (CIGIE) Training Institute/ During the reporting          the OIG continued to coordinate with CIGIE Re1
period, two training sessions took place that included           search Misconduct Working Group in providing
practical exercises that gave OIG employees hands-on             comments on updates of the policy directives for
experience with preparing suspension and debarment               SBA’s Small Business Innovation Research Program
recommendations/
                                                                 to promote fraud deterrence/
                          ***
                                                                                         ***


                                                            19
Fraud Awareness Briefings                                      During this reporting period, the Hotline processed
                                                               510 complaints received in the following manners.
During this reporting period, the OIG conducted
9 fraud awareness presentations for over 515 at1                   53% through the OIG’s online link
tendees, including SBA and other government em1
ployees, law enforcement personnel, attorneys, and                 29% by email
lending ofjcials/ Topics included SBA’s mission,
fraud indicators and trends, and contacts for future               12% in a letter or writing
referrals/
                                                                    6% via telephone, and
                         ***
The OIG Hotline                                                     Less than 1% in person

The Hotline is staffed by OIG employees who pro1
cess allegations of waste, fraud, abuse, or serious
mismanagement in the SBA or its programs from
employees, contractors, and the public/ The Hotline
also coordinates reviews with internal audit and in1
vestigative units and with SBA program ofjces/

The OIG receives the majority of its Hotline com1
plaints through its electronic Hotline Complaint
form located within the OIG website at http.//
www/sba/gov/ofjce-of-inspector-general/ Those who
report information can do so openly, anonymously
and confidentially without fear of reprisal/

During this reporting period, the Hotline received
510 complaints, which are logged into the Hotline
database and tracked/ Hotline staff conduct a pre1                                       ***
liminary review and analysis of all complaints re1
ceived to determine the appropriate course of ac1
tion/ As part of the review process, Hotline staff
coordinate reviews of allegations with Investiga1
tions, OIG Counsel, Auditing, and SBA Program
Ofjces/     Eighty-two percent of complaints were
forwarded to the Investigations Division for addi1
tional review and analysis/

Investigations that are initiated as a result of a Hot1
line complaint are monitored by the Hotline staff
throughout the course of the investigation/ If addi1
tional investigation is not warranted, complaints
may be referred to SBA program ofjces for appropri1
ate action or informational purposes/




                                                          20
This page intentionally blank;




           21
	
Statistical Highlights: 

October 1, 2012– March 31, 2013


                             Summary of Ofjce-Wide Dollar Accomplishments

As a Result of Investigations & Related Activities

–Potential Investigative Recoveries & Fines                                                   $20,631,673
–Asset Forfeitures Attributed to OIG Investigations                                          $58,870,054

–Loans/Contracts Not Approved or Canceled as a Result of Investigations                         $950,000

–Loans Not Made as a Result of Name Checks                                                    $14,565,153
Investigations Sub-Total                                                                     $95,016,880
As a Result of Audit Activities

–Disallowed Costs Agreed to by Management                                                      $2,126,145

–Recommendations that Funds Be Put to Better Use Agreed to by Management                     $40,700,000

Audit Sub-Total                                                                              $42,826,145

TOTAL                                                                                        $137,843,025




    Efjciency and Effectiveness Activities Related to Audit, Other Reports, and Follow-Up Activities


Reports Issued                                                                                         12
Recommendations Issued                                                                                 97

Dollar Value of Costs Questioned                                                               $1,774,449

Dollar Value of Recommendations that Funds be Put to Better Use                              $40,700,000

Recommendations for which Management Decisions Were Made                                               97
Recommendations Without a Management Decision                                                          39

Collections as a Result of Questioned Costs                                                     $858,774




                                                      22
                                   Indictments, Convictions, Case Actions


Indictments from OIG Cases                                                                 37
Convictions from OIG Cases**                                                               23

Cases Opened                                                                               24
Cases Closed                                                                               30



                         SBA Personnel Actions Taken as a Result of Investigation


Dismissals                                                                                0
Resignations/Retirements                                                                  1

Suspensions                                                                               1
Reprimands                                                                                0

Other                                                                                     0




                           Legal Reviews and Debarment and Suspension Actions


Legislation, Regulations, Standard Operating Procedures, and Other Issuances Reviewed     53

Suspensions and/or Debarments Recommended to the Agency*                                  16

—Pending at the Agency                                                                    28*

Suspensions Issued by the Agency                                                           5

Proposed Debarments Issued by the Agency                                                  8

Final Debarments Issued by the Agency                                                     10

Proposed Debarments Declined by the Agency                                                0

Administrative Agreements Entered by the Agency in Lieu of Debarment                       3

Actions by Other Agencies Resulting from Investigations in which the OIG Participated**   13

* The SBA has initiated action on 14 of the 28 referrals pending with the Agency/


                                                        23
!ppendix I: OIG Reports Issued

September 30, 2012, to March 30, 2013


                                      Small Business Access to Capital


                                                       Report        Issue      Questioned    Funds for
                       Title
                                                       Number        Date         Costs       Better Use

The Small Business Administration's Improper
Payment Rate for 7(a) Guaranty Purchases Remains           13-07   11/15/2012    $1,762,376   $40,700,000
Significantly Underestimated

                                                                                 $1,762,376
                Program Subtotal                             1                                $40,700,000




                                            Agency Management

                                                       Report        Issue      Questioned    Funds for
                       Title
                                                       Number        Date         Costs       Better Use

Independent Auditor's Report on the SBA's
                                                           13-04   11/14/2012        $0           $0
FY 2012 Financial Statements

Independent Auditor's Report on the SBA's
                                                           13-05   11/15/2012        $0           $0
FY 2012 Special Purpose Financial Statements
Audit of the SBA’s FY 2012 Financial Statements
                                                           13-09   12/11/2012        $0           $0
Management Letter
SBA’s Inappropriate Contracting Practices to Recon1
figure Space for the Ofjce of                              13-12   03/26/2013        $0           $0
International Trade
The SBA’s Loan Management and Accounting Sys1
                                                           13-11   03/12/2013        $0           $0
tem Incremental Improvement Projects
Evaluation of SBA's Progress in Reducing Improper
                                                           13-13   03/14/2013        $0           $0
Payments in FY 2012

The SBA’s 417 Unauthorized Commitments Impact1
                                                           13-14   03/28/2013        $0           $0
ed Mission-Related Services and Increased Costs

Briefing Report for the FY 2012 Federal Information
                                                           13-15   03/29/2013        $0           $0
Security Management Act Review

Program Subtotal                                             8                       $0           $0




                                                      24
                  Small Business Development, Contracting, Education, and Training

                                            Report          Issue       Questioned     Funds for
                  Title
                                            Number          Date          Costs        Better Use
Benefits of Mentor Protégé Joint Ventures
are Unknown. Robust Oversight is Need1       13-03        10/23/2012        $0             $0
ed to Avoid Abuse and Assure Success

The SBA Mismanaged Certain 8(a) Infor1
                                             13-08        12/03/2012      $12,073          $0
mation Technology Contracts

Program Subtotal                              2                           $12,073          $0




                                            Disaster Loans

                                            Report           Issue       Questioned    Funds for
                  Title
                                            Number           Date          Costs       Better Use
The Small Business Administration Did Not
Effectively Assess Disaster Assistance
                                              13-10        01/25/2013        $0            $0
Stafjng Requirements, Availability, and
Readiness
Program Subtotal                                1                            $0            $0
TOTALS (all programs)                          12                         $1,774,449   $40,700,000




                                                     25
!ppendix II: Reports 

With Questioned Costs
	


                                                                         Questioned         Unsupported
                               Reports      Recommendations*
                                                                          Costs**             Costs***
      No management
 A/   decision made by             2                      3               $173,200,000            $173,200,000
      September 30, 2012
      Issued during this           2                      7                  $1,774,449             $1,730,560
 B/
      reporting period
      Universe from which
      management deci1
      sions could be made          4                   10                  $174,974,449           $174,930,560
      in this reporting
      period – Subtotals
      Management
      decision(s) made
 C/                                3                    6                    $2,143,889             $2,100,000
      during this reporting
      period
      (i) Disallowed costs         3                    4                     $2,126,145            $2,100,000
      (ii) Costs not
                                   1                      2                     $17,744                     0
           disallowed
      No management
 D/   decision made by             2                    4                  $172,830,560           $172,830,560
      March 31, 2013




  * Reports may have more than one recommendation/
	
 ** Questioned costs are those that are found to be improper/
	
*** 	Unsupported costs may be proper, but lack documentation/ Unsupported costs are a subset of
     questioned costs/




                                                     26
!ppendix III: Reports

With Recommendations that Funds Be Put to Better Use
	




                                                                           Recommended Funds
                                           Reports      Recommendations*
                                                                              For Better Use
     No management decision made by
A/                                             1               1               $43,000,000
     September 30, 2012
B/   Issued during this reporting period       1               1               $40,700,000
     Universe from which management
     decisions could be made in this           2               2               $83,700,000
     reporting period – Subtotals
     Management decision(s) made
C/                                             1               1               $40,700,000
     during this reporting period
     (i) Recommendations agreed to
                                               1               1               $40,700,000
          by SBA management
     (ii) Recommendations not agreed
                                              0                0                   $0
          to by SBA management
     No management decision made by
D/                                             1               1               $43,000,000
     March 31, 2013




                                                   27
!ppendix IV: Reports

With Non-Monetary Recommendations
	




                                                                       Reports           Recommendations
          No management decision made by
    A/                                                                     12                    35**
          September 30, 2012*

    B/    Issued during this reporting period                              9                      89

          Universe from which management decisions could
                                                                           21                     124
          be made in this reporting period – Subtotals
          Management decision(s) made (for at least one rec1
    C/    ommendation in the report) during this reporting                 14                     90
          period

          No management decision made by
    D/                                                                     11                     34
          March 31, 2013*



    *		    Adding the number of reports for C/ & D/ will not result in the subtotal of A/ & B/ because any single
           report may have
           recommendations that fall under both C/ & D/
**         Information is different from what was previously reported due to database corrections/




/




                                                          28
!ppendix V: Reports

From Prior Periods with Overdue Management Decisions
	




                                                 Report       Date
                     Title                                                            Status
                                                 Number      Issued
SBA's Funding of Information Technology                                  Management has not responded to
Contracts Awarded to ISIKA Technologies,           11-14     6/2/2011    three recommendations in the re1
Inc/                                                                     port/
Small Business Administration’s Rationale
                                                                         Management has not responded to
for Excluding Certain Types of Contracts
                                                   12-04     12/6/2011   five recommendations in the re1
from the Annual Small Business Procure1
                                                                         port/
ment Calculations Needs to be Documented
The SBA’s Improper Payment Review and
Reporting for its Contracting Activities did                             Management has not responded to
                                                   12-07     3/8/2012
not Comply with IPERA and IPIA Require1                                  one recommendation in the report/
ments During FY 2011
The Small Business Administration did not                                Management has not responded to
Maximize Recovery for $171/1 Million in De1        12-14     7/2/2012    two recommendations in the re1
linquent Disaster Loans In Liquidation                                   port/
A Detailed Repayment Ability Analysis is
Needed on High-Dollar Early-Defaulted                                    Management has not responded to
                                                   12-18    8/16/2012
Loans to Prevent Future Improper Pay1                                    one recommendation in the report/
ments


*“Overdue” is defined as more than 180 days from the date of issuance/




                                                       29
!ppendix VI: Reports

Without Final Action as of March 31, 2013
	
                                                      Final
                                     Date of
Report                    Date                       Action           Explanation as Submitted in
             Title                 Management
Number                   Issued                      Target                   FY 2012 AFR
                                    Decision
                                                      Date
                                                                The recommendation is to establish re1
                                                                ceivable accounts for 7(a) loan service fees/
                                                                This is part of the SF 1502 project and the
         7(a) Service                                           team is working to determine if the estab1
 0-14    Fee             3/30/00     8/22/00         12/31/13   lishment of a receivable account for 7(a)
         Collections                                            loan fees is to be part of the fee collection
                                                                enhancement initiative/ Anticipated com1
                                                                pletion date is June 2013/

                                                                The recommendation is to the Ofjce of
         SBA’s Over1                                            Capital Access to develop SBA procedures
         sight of the                                           and regulations governing the proper op1
         Fiscal Trans1                                          eration of the Master Reserve Fund/ An
 3-08    fer Agent for   1/30/03     10/15/03        4/30/12    SOP has been delayed several times while
         the 7(a)                                               in internal clearance/ The ofjce is working
         Loan Pro1                                              to publish the SOP in 2013/
         gram

                                                                The two recommendations remaining
         Audit of                                               open are to the Ofjce of the Chief Finan1
         SBA's                                                  cial Ofjcer (OCFO) to revise, clear and
         Process for                                            issue the draft SOP 00 02 3 and clearly
         Complying                                              define material weakness as it relates to
         with the                                               SBA and at the different levels of manage1
         Federal                                                ment within the Agency/ The current SOP
 4-34                    7/29/04     9/9/04          06/30/13
         Managers'                                              is being rewritten/ The OCFO will work
         Financial                                              with the OIG and OGC during the SOP
         Integrity Act                                          update process and to obtain clearance/
         Reporting                                              These final actions are expected to be
         Require1                                               completed by 06/30/2013/
         ments

                                                                There is one open recommendation to the
                                                                Ofjce of the Chief Financial Ofjcer to
                                                                update the accounting SOP to include
                                                                SBA’s policies and procedures to reflect
                                                                the FL accounts and data field updated for
         FY 2005                                                each transaction/ The accounting pro
         Financial                                              forma on LAS transactions is available in
 6-10    Statements-     1/18/06     3/07/06         9/30/13    “table format” in the CGL, but data field
         Manage1                                                updates are not show/ SBA will work with
         ment Letter                                            OCIO to develop this documentation
                                                                through an automated process/ This audit
                                                                recommendation is expected to have final
                                                                action by 09/30/2013/




                                                30
                                                        Final
                                      Date of
Report                   Date                          Action          Explanation as Submitted in
            Title                   Management
Number                  Issued                         Target                  FY 2012 AFR
                                     Decision
                                                        Date
                                                                  The recommendation is to the Ofjce of
                                                                  the Chief Financial Ofjcer (OCFO) to
         Audit of                                                 develop Procedure Notices or SOPs as
         SBA’s Im1                                                internal guidance when changes to IPIA
         plementati                                               requirements are issued by OMB/ Im1
         on of the                                                proper Payments is a section in the Inter-
 6-25                  06/13/06       07/19/06         06/30/13
         Improper                                                 nal Controls SOP/ The OCFO will up1
         Payments                                                 date this with new Improper Payments
         Infor1                                                   Elimination and Recovery Act (IPERA)
         mation Act                                               guidance/ This final action is expected to
                                                                  be completed by 06/30/2013/
                                                                  The recommendation is to the chief
                                                                  Operating Ofjcer, in conjunction with
         Audit of                                                 appropriate program ofjcials, to ensure
         SBA’s                                                    that policies are implemented regard1
         Fiscal Year                                              ing segregation of duties for FRIS,
 7-03    2006          11/15/2006    12/20/2006        06/30/11   JAAMS, DCMS, and LAS/ SOP 90 46 2B
         Financial                                                is undergoing revisions to incorporate
         State1                                                   configuration management controls/
         ments                                                    SOP 90 47 3 is expected to be imple1
                                                                  mented by 12/31/12/
                                                                  One recommendation remains open to
                                                                  the Ofjce of Capital Access (OCA), to
                                                                  establish risk mitigation goals applica1
                                                                  ble to each loan program and the entire
                                                                  lending portfolio/ Based on available
                                                                  data, OCRM proposed performance
         Oversight                                                metrics to be used to evaluate program
         of SBA                                                   performance at the portfolio, loan and
 8-12                  05/09/08       6/20/08          12/31/12
         Supervised                                               subprogram levels/ By 12/31/12, OCRM
         Lenders                                                  intends to conduct a baseline analysis,
                                                                  establish acceptable risk levels, risk
                                                                  management action plans, and develop
                                                                  a quarterly reporting system/ This final
                                                                  action is expected to be completed by
                                                                  12/31/2011/




                                                  31
                                                      Final
                                     Date of
Report                    Date                       Action          Explanation as Submitted in
            Title                  Management
Number                   Issued                      Target                  FY 2012 AFR
                                    Decision
                                                      Date
                                                                There is one remaining open recommen1
                                                                dation to the Ofjce of Financial Assis1
                                                                tance to make cost-effective remediation
         Planning                                               of mainframe vulnerabilities a priority
         for the                                                and ensure that migration of LAS occurs
         Loan                                                   before the current mainframe contract
         Manage1                                                expires in 2012/ The LMAS investment
         ment and                                               was revised in response to OMB Memo1
 8-13    Accounting     5/14/08      8/27/08         12/11/11   randum M10 26/ SBA provided a copy of
         System                                                 the schedule to come off the mainframe/
         Moderniza1                                             Progress was noted in the migration from
         tion and                                               the mainframe but the recommendation
         Develop1                                               will not be closed until the migration is
         ment Effort                                            complete and the Micro-focus COBOL is
                                                                in full production on a separate operat1
                                                                ing platform/
                                                                The recommendation is to the Chief Op1
                                                                erating Ofjcer, in conjunction with pro1
                                                                gram ofjces, to document and imple1
         Audit of                                               ment segregation of duty policies and
         SBA’s Fiscal                                           procedures for the Loan Accounting Sys1
 9-03    Year 2008      11/14/08    09/30/09         12/15/10   tem/ SOP 90 47 2 is undergoing revisions
         Financial                                              to incorporate configuration manage1
         Statements                                             ment controls/ SOP 90 47 3 is expected
                                                                to be implemented by 12/31/12/ This rec1
                                                                ommendation will have a final action by
                                                                12/31/12/
                                                                The two open recommendations are to
                                                                the Ofjce of Financial Assistance to rein1
                                                                force the importance of the collateral
         Audit of                                               analysis in an updated SOP and ensure
         SBA’s Fiscal                                           that the revised Disaster Loan SOP un1
         Year 2008                                              derwent an extensive and careful review
 9-05    Financial      12/17/08    02/18/09         12/31/12   process to ensure that compliance with
         Statements.                                            DCIA and other statues [sic\ were being
         Manage1                                                consistently applied across all servicing/
         ment Letter                                            liquidation SOPs/ These recommenda1
                                                                tions are expected to have final actions
                                                                by 12/31/2012/ al actions by 12/31/2012/




                                                32
                                                     Final
                                    Date of
Report                  Date                        Action          Explanation as Submitted in
            Title                 Management
Number                 Issued                       Target                  FY 2012 AFR
                                   Decision
                                                     Date
         Review of
         SBA
         national
         guaranty
 9-12                  03/31/09     3/31/09         10/15/09   None/
         Purchase
         Center
         Furniture
         Contract
                                                               The recommendation is to Government
                                                               Contracting & Business Development to
         Participa1                                            determine whether 8(a) firms owned by
         tion in the                                           ANCs and tribes should continue to be
         8(a)                                                  exempt from the cap on total sole
         Program                                               source awards/ The program ofjce will
         by Firms                                              evaluate the extent to which ANCs are
 9-15                  07/10/09    08/04/09         10/31/10
         Owned by                                              bringing work into the 8(a) program
         Alaska                                                that might not otherwise by available to
         Native                                                program participants/ The program
         Corpora1                                              ofjce is developing a methodology in
         tions                                                 order to conduct this review/ This rec1
                                                               ommendation is expected to be final by
                                                               09/30/2013/
         Review of
         Allegations
         Concern1
         ing How
         the Loan
         manage1
         ment and
 9-17                  07/30/09    08/28/09         09/30/09   None/
         Account1
         ing system
         Moderni1
         zation
         Project is
         being
         Managed




                                               33
                                                      Final
                                     Date of
Report                   Date                        Action          Explanation as Submitted in
            Title                  Management
Number                  Issued                       Target                  FY 2012 AFR
                                    Decision
                                                      Date
                                                                The recommendation is to the Ofjce of
                                                                Financial Program Operations/ Deter1
                                                                mine the cost implications of achieving
                                                                compliance with flood insurance statutes
         Monitoring                                             on existing and future loans/ The pro1
         of                                                     gram ofjce included the standards for
         Insurance                                              implementation in SOP 50 52, which will
 10-01   Coverage       10/20/09    11/06/09         03/31/13   enter clearance in the first quarter of FY
         for Disaster                                           2013/ In addition, the ofjce has devel1
         Loan                                                   oped a working group to analyze the best
         Recipients                                             method to implement the forced place1
                                                                ment of insurance/ The expected imple1
                                                                mentation of forced placement of insur1
                                                                ance is 03/31/2013/

         Audit of
         SBA’s
 10-04   FY 2009        11/13/09     12/11/09        06/01/10   None/
         Financial
         Statements
                                                                The recommendation is to the Ofjce of
                                                                Capital Access to require that lenders use
                                                                the actual cash flow method to deter1
                                                                mine borrower repayment ability, histor1
         Premier
                                                                ical salary levels to estimate ofjcer sala1
         Certified
                                                                ry, and historical sales data to make sales
         Lenders in
 10-10                  03/23/10     04/11/12        04/10/13   projections/ OCA is in the process of
         the Section
                                                                identifying industry best practices and
         504 Loan
                                                                consulting with similar government
         Program
                                                                agencies regarding methods and guide1
                                                                lines for repayment analysis/ OCA will
                                                                incorporate best practices into agency
                                                                guidance by 04/10/13/




                                                34
                                                  Final
                                 Date of
Report               Date                        Action          Explanation as Submitted in
           Title               Management
Number              Issued                       Target                  FY 2012 AFR
                                Decision
                                                  Date
                                                            The three recommendations are to the
                                                            Ofjce of Business Operations to 1) rec1
                                                            oncile Recovery Act contract awards re1
                                                            ported to FPDS-NG and Recovery /gov all
                                                            non-competitive contract awards previ1
         Accuracy                                           ously not reports- 2) review FPDS-NG
         of                                                 and designate the appropriate contract
         Recovery                                           type for the five Recovery Act contracts
         Act                                                identified and report to Recovery/gov
         Contract                                           any Recovery Act contracts that were not
         Award                                              awarded on a firm-fixed basis- and 3)
         Obliga1                                            correct the competition characteristic
         tions                                              recorded in FPDS-NG for an identified
         Reported                                           contract to show that it was a
 ROM     to the                                             “competitive delivery order/” The Data
                    04/15/10    05/03/10         01/31/12   Quality Plan was updated and a contract
 10-14   Federal
         Procure1                                           was awarded for additional support for
         ment                                               data quality corrections/ The resources
         Database                                           will concentrate on Data cleanup, data
         System—                                            quality certification and correcting re1
         Next                                               maining data anomalies/ The Agency
         Genera1                                            completed a reconciliation between
         tion and                                           FPDS, PRISM and Oracle, and is auto1
         Recov1                                             mating this quality assurance process/
         ery/Gov                                            SBA is not able to correct data in FPDS—
                                                            NG of reported contracts in prior years
                                                            and OBO is working with the auditors to
                                                            resolve the issues/ These recommenda1
                                                            tions are expected to have final actions
                                                            by 01/31/2013/




                                            35
                                                     Final
                                    Date of
Report                  Date                        Action          Explanation as Submitted in
            Title                 Management
Number                 Issued                       Target                  FY 2012 AFR
                                   Decision
                                                     Date
                                                               The three recommendations is to the
                                                               Ofjce of the Administrator to require
                                                               the LMAS Quality Assurance plan to
                                                               incorporate all the components required
                                                               by the enterprise-wide QA plan- to take
         Adequacy                                              steps to hold contractors accountable for
         of Quality                                            performing the activities specified in its
         Assurance                                             contract- and to revise the contractor
         Oversight                                             performance work statement to include
         of the Loan                                06/13/10   IV&V responsibilities/ The ITQA SOP
 10-14                 09/13/10        *
         manage1                                               was updated and SBA has demonstrated
         ment and                                              significant progress in implementing a
         Accounting                                            quality assurance process by conducting
         System                                                QA reviews/ The contract has been as1
         Project                                               signed to a QA manager to ensure inde1
                                                               pendence and the updated SOP outlines
                                                               the QA function/ SBA is acquiring a ven1
                                                               dor to perform IV&V/ The expect final
                                                               action is expected by September 2013/

                                                               The two recommendations are to the
                                                               Ofjce of Capital Access to require the
                                                               lenders have 25 purchased loans to bring
                                                               the loans into compliance or recover the
         Material                                              $375,259 in paid guaranties- and to flag
         Deficien1                                             the other loans that have not yet been
         cies                                                  purchased to ensure the loan deficiencies
         Identified                                            are properly addressed if the loans are
 ROM     in Early-                                             purchased/ Of the 25 loans in the first
                       09/24/10     04/01/11        01/31/13   recommendation, five loans are currently
 10-19   Defaulted
         and Early-                                            undergoing the evaluation process for
         Problem                                               denial or repair as recommended/ Ex1
         Recovery                                              pected completed through process and
         Act Loans                                             potential recovery is by 01/31/13/ The
                                                               three loans in the second recommenda1
                                                               tion are currently being evaluated for
                                                               denial or repair and expected recovery is
                                                               by 03/31/13/




                                               36
                                                    Final
                                   Date of
Report                 Date                        Action        Explanation as Submitted in
           Title                 Management
Number                Issued                       Target                FY 2012 AFR
                                  Decision
                                                    Date
                                                            The four recommendations are to the
                                                            Ofjce of the Chief Information Ofjcer to
                                                            (1) improve the tracking and monitoring
                                                            process to address risk vulnerabilities for
                                                            key financial systems- (2) prevent users
                                                            from anonymously connecting unauthor1
                                                            ized devices by mandating domain au1
                                                            thentication for IP address issuance- (3)
                                                            develop a comprehensive security educa1
                                                            tion and training program for IT security
                                                            personnel- and (4) enforce an organization
                                                            -wide configuration management process/

                                                             For the first recommendation, Agency
                                                                -wide vulnerability tracking and mon1
                                                                itoring policies and procedures have
                                                                been approved by the auditors and
         Audit of
                                                                monitoring tools have been pur1
         SBA’s
                                                                chased and are being deployed/ Vul1
 11-03   FY 2010      11/12/10       *               **         nerability reports are generated from
         Financial                                              the tools and are reviewed weekly/ A
         Statements                                             project is underway to establish a
                                                                process to remediate vulnerabilities
                                                                according to policy and procedures/
                                                                This final action is estimated to be
                                                                completed by 01/31/2013/

                                                             Anonymous connections and manda1
                                                                tory domain authentication are en1
                                                                forced by CounterAct, and will pre1
                                                                vent unauthorized devices on the
                                                                network once the 802/1x standard is
                                                                applied to all switches/ A project is
                                                                underway to implement the 802/1x
                                                                solution, which includes require1
                                                                ments to document policies and pro1
                                                                cedures/ Final action estimated to be
                                                                completed by 12/31/12/




                                              37
                                                     Final
                                    Date of
Report                  Date                        Action             Explanation as Submitted in
            Title                 Management
Number                 Issued                       Target                     FY 2012 AFR
                                   Decision
                                                     Date

                                                                Training requirements are documented
                                                                   in the revised IT Security Program SOP
                                                                   which is in the clearance process/ A
                                                                   vendor has been selected to provide
                                                                   annual computer security awareness
                                                                   and privacy training to all SBA employ1
                                                                   ees/ A second vendor is being identified
                                                                   to provide focused training to staff with
                                                                   significant IT security responsibilities/
                                                                   The final action is estimated to be com1
                                                                   plete by 3/28/13/

                                                                Configuration Management policy is
                                                                   being developed to incorporate enter1
                                                                   prise change control/ A centrally man1
                                                                   aged Agency-wide configuration man1
                                                                   agement solution is being identified for
                                                                   procurement/ Final action is estimated
                                                                   to be complete by 9/30/13/
                                                               The recommendation is to the Ofjce of
                                                               Capital Access to perform an analysis of
                                                               loans charged off in prior years to identify
                                                               and correct any DCA non-compliance issues
         Audit of
                                                               noted/ During FY2012, the DCIA Compliance
         SBA’s                                                 Team was focused on correcting system
         FY 2010                                               coding and testing to ensure future referrals
         Financial                                             would be compliant/ DCIA Compliance
 11-05                 12/15/10     02/09/11        03/15/13
         State1                                                Team has begun conducting analysis of
         ments—                                                loans charged off in prior years and will
         Manage1                                               develop a plan to correct any non-
         ment Letter                                           compliance issues/ Final action is estimated
                                                               to be complete by 3/15/13/



         Improper
         Allotment
 ROM
         of Recovery   12/05/10     02/09/11        02/28/11   None/
 11-01
         Act Appor1
         tionments




                                               38
                                                    Final
                                   Date of
Report                 Date                        Action          Explanation as Submitted in
            Title                Management
Number                Issued                       Target                 FY 2012 AFR
                                  Decision
                                                    Date
                                                            The eight recommendations are to the
                                                            Ofjce of the Chief Information ofjcer to
                                                            (1) require an updated list of Major
                                                            Systems and their interfaces- (2) manage,
                                                            control, and monitor system interconnec1
                                                            tions throughout their lifecycle- (3) devel1
                                                            op configuration management policies
                                                            and procedures- (4) develop and maintain
                                                            a centralized inventory of all Agency
                                                            hardware and software- (5) develop and
                                                            document baseline configuration for each
                                                            information system- (6) modify the
                                                            POA&M reporting tool to comply with
                                                            OMB Memorandum 04-25- (7) develop
                                                            and test disaster recovery plans- and (8)
                                                            enforce contractor background investiga1
                                                            tions/ Status for these recommendations
                                                            include.
                                                            (1) A total count of all interconnections
         Weaknesses                                               was completed and Interconnection
         Identified                                               Service Agreements (ISAs) for FISMA
         During the                                               -reportable systems are being ob1
 11-06                01/28/11     03/28/11          **
         FY 2010                                                  tained/ Estimated completion of the
         FISMA                                                    final action is 3/28/13/
         Review
                                                            (2) SOP 90 47 3, published 10/10/12, re1
                                                                quires system owners to manage sys1
                                                                tem interconnections in accordance
                                                                with NIST requirements/ SBA person1
                                                                nel have one year to implement the
                                                                requirements of the SOP/ The final
                                                                action completion date is estimated
                                                                to be 10/10/13/
                                                            (3)    Configuration Management policy is
                                                                  being developed to incorporate en1
                                                                  terprise change control/ The final
                                                                  action completion date is estimated
                                                                  to be 9/30/13/
                                                            (4) An enterprise-wide asset manage1
                                                                ment tool will be procured to central1
                                                                ly manage assets/ The final action
                                                                completion date is estimated to be
                                                                2/7/14/




                                              39
                                                    Final
                                   Date of
Report                 Date                        Action          Explanation as Submitted in
           Title                 Management
Number                Issued                       Target                  FY 2012 AFR
                                  Decision
                                                    Date
                                                              (5) A project is underway to establish
                                                                   baselines for all systems agency hard1
                                                                   ware and software/ Final action com1
                                                                   pletion is estimated to be 1/31/13/
                                                              (6) MB Memo 04-25 compliant tool
                                                                   CSAM has replaced the previous
                                                                   POA&M tool and is used to centrally
                                                                   manage POA&Ms/ Once cost guid1
                                                                   ance is established CSAM training
                                                                   will be provided to the user commu1
                                                                   nity/ The final action completion date
                                                                   is estimated to be 12/30/12/
                                                              (7) Disaster recovery tests were per1
                                                                   formed for at-risk externally hosted
                                                                   systems/ Table top test were per1
                                                                   formed for internally-hosted systems-
                                                                   a solution to the inability to conduct
                                                                   tests internally is being researched/
                                                                   The final action completion date is
                                                                   estimated to be 9/30/13/
                                                              (8) SOP 90 47 3 contains procedures for
                                                                   managing contractor background
                                                                   investigation and reviews are being
                                                                   conducted/ The final action date is
                                                                   estimated to be 11/15/12/
         Processing                                           The recommendation is to the Ofjce of
         of                                                   Capital Access to revise the SOP to pro1
         Insurance                                            vide detailed instructions for processing
         Recovery                                             insurance recovery checks/ SOP 50 52 is
         Checks at                                            being prepared for clearance and the final
 11-07                02/10/11     04/07/11        09/30/13   action completion date is 12/31/12/
         the
         Disaster
         Loan
         Servicing
         Center




                                              40
                                                     Final
                                    Date of
Report                  Date                        Action          Explanation as Submitted in
            Title                 Management
Number                 Issued                       Target                  FY 2012 AFR
                                   Decision
                                                     Date
         SBA’s                                                 The two recommendations are to the
         Procure1                                              Ofjce of the Chief Financial Ofjcer to
         ment of                                               exclude contracts used to determine 8(a)
                                                               program contracts in FY 2009 and 2010
         Infor1
                                                               and to conduct a review of data submitted
         mation
                                                               to FPDS-NG for the vendor/ The Agency
         Technology
                                                               completed a reconciliation between FPDS,
 11-08   Hardware      02/25/11     03/30/11        01/31/12
                                                               PRISM and Oracle, and is automating this
         and                                                   quality assurance process/ SBA is not able
         Software                                              to correct data in FPDS-NG of reported
         Through                                               contracts in prior years and OCFO is
         Isika Tech1                                           working with the auditors to resolve the
         nologies,                                             issues/ These recommendations are ex1
         Inc/                                                  pected to have final actions by 01/31/2013/
                                                               The six recommendations are to the Ofjce
                                                               of the Chief Financial Ofjcer to determine
                                                               if awards were made or funds should be de
                                                               -obligated on 66 purchase requisitions- to
                                                               perform routine reconciliation of executed
                                                               awards to FPDS-NG/gov- to deploy an in1
                                                               dependent statistical verification and vali1
         Quality of
                                                               dation of all SBA transactions- to deter1
         SBA’s
                                                               mine if Recovery Act funds were used to
 ROM     Recovery
                       3/22/11      10/06/11           **      fund 13 contracts- to develop a data quality
 11-04   Act Data
                                                               plan- and to monitor contractor reported
         on Public
                                                               information and prime contractor infor1
         Websites                                              mation for accuracy/ The OCFO is re1
                                                               searching data to resolve the contract
                                                               funding issues and is developing proce1
                                                               dures to ensure data accuracy in the fu1
                                                               ture, including revising the existing data
                                                               quality plan/ Final actions for all recom1
                                                               mendations are estimated to be 9/30/13/
         Manage1                                               The two recommendations are to the
         ment Advi1                                            Ofjce of Financial Programs to develop
         sory Report                                           record designation requirements for all
         on Records                                            loan servicing documents and incorporate
         Manage1                                               the guidance into SOP 50 52 and to revise
         ment and                                              the SOP to preserve the analyses per1
 11-10   Documen1      03/29/11     06/20/11        09/30/13   formed to conduct all servicing actions/
         tation Pro1                                           The SOP 50 52 is being put into clearance/
         cess at the                                           The final action date is estimated to be
         Disaster                                              12/31/12/
         Loan Ser1
         vicing Cen1
         ters

                                               41
                                                    Final
                                   Date of
Report                 Date                        Action           Explanation as Submitted in
            Title                Management
Number                Issued                       Target                   FY 2012 AFR
                                  Decision
                                                    Date
                                                              The 12 recommendations are to the Ofjce
                                                              of Government Contracting and Business
                                                              Development require development or up1
                                                              date to policies and procedures to include
                                                              selection criteria, an effective monitoring
         Effective1                                           process, resource requests, instruction on
         ness of                                              completing checklist questions, monitor1
         SBA’s                                                ing the performance of work requirements
 11-11   Surveil1     03/31/11       *             12/31/11   and issuance surveillance review reports/
         lance                                                Revisions to Chapter 4, How Do I Perform
         Review                                               a Surveillance Review? Include 8(a) spe1
         Process                                              cific requirements, modification of rating
                                                              categories, establishment of formal follow-
                                                              up processes and update of interview ques1
                                                              tions/ The SOP 60 02 7 is being updated
                                                              and will be submitted for clearance/ The
                                                              final action date is estimated to be 9/30/13/
                                                              The four recommendations are to the
                                                              Ofjce of the Chief Financial Ofjcer and
                                                              require a review of funding to ensure SBA
                                                              did not violate the Anti-Deficiency Act
                                                              during a Continuing Resolution in 2011- a
         SBA’s
                                                              review of IDIQ contracts and task orders
         Funding of
                                                              to ensure they are issued in compliance
         Infor1
                                                              with FAR- and a revision of FY2009 and
         mation                                               FY2010 FPDS-NG data/ The OCFO is re1
         Technology                                           searching the funding issue to ensure
 11-14                06/02/11     08/1/11         12/31/11
         contracts                                            funds were not inappropriately obligated
         Awarded to                                           and will review IDIQ contracts and written
         ISIKA                                                policies and procedures to ensure work is
         Technolo1                                            performed in compliance with the FAR/
         gies, Inc/                                           SBA is unable to update prior year infor1
                                                              mation in FPDS-NG and is working with
                                                              the auditors to resolve the issue/ Final ac1
                                                              tion completion date is estimated to be
                                                              6/30/13/




                                              42
                                                      Final
                                     Date of
Report                   Date                        Action        Explanation as Submitted in
            Title                  Management
Number                  Issued                       Target                FY 2012 AFR
                                    Decision
                                                      Date
         Banco Popu1                                          The two recommendations are to the
         lar did not                                          Ofjce of Capital Access to recover loan
         Adequately                                           guaranties, less any recoveries, paid on
         Assess Bor1                                          ten defaulted loans- and to improve data
         rower Re1                                            pertaining to new franchise loans/ The
         payment                                              ofjce is working on recovering the guar1
 11-16                  07/13/11        *              **
         ability when                                         antee payments and has written a white
         Originating                                          paper which is under review/ Final ac1
         Huntington                                           tion completion is estimated to be
         Learning                                             10/31/12/
         Center Fran1
         chise Loans
         Independent
         Auditor’s
         Report on
 12-02   the SBA’s      11/14/11     12/22/11          **     None/
         FY 2011 Fi1
         nancial
         Statements
         FY 2011
         Financial
         Statements
 12-05                  12/15/11        *              **     None/
         Audit—
         Manage1
         ment Letter
         SBA’s
         Lender Loan
         Report
         Process has
         Systemic                                             None/
 12-08                  02/23/12        *              **
         Reporting
         Issues and
         Data
         Control
         Weaknesses
         FY 2011
         Review of
 12-10   SBA’s          03/15/12        *              **     None/
         Improper
         Payments




                                                43
                                                       Final
                                      Date of
Report                    Date                        Action          Explanation as Submitted in
             Title                  Management
Number                   Issued                       Target                 FY 2012 AFR
                                     Decision
                                                       Date
          High-
          Dollar
          Early-
          Defaulted
          Loans
          Require an
          Increased
          Degree of
          Scrutiny                                               Not required since a management deci1
 12-11R                  03/23/12        *               **
          and                                                    sion was made within the preceding year /
          Improved
          Quality
          Control at
          the
          National
          Guaranty
          Purchase
          Center
          The SBA’s
          Ofjce of
          Interna1
          tional
          Trade
          Inappropri1
          ately
          Awarded a
          One                                                    Not required since a management deci1
 12-12                   03/20/12     01/18/13        09/30/17
          Million                                                sion was made within the preceding year /
          Dollar State
          Trade and
          Export
          Promotion
          (STEP)
          Grant to an
          Ineligible
          Recipient
          Review of
                                                                 Not required since a management deci1
 12-13    the SBA’s      03/30/12     06/19/12        06/30/13
                                                                 sion was made within the preceding year/
          Cash Gifts




                                                 44
                                                     Final
                                    Date of
Report                  Date                        Action         Explanation as Submitted in
            Title                 Management
Number                 Issued                       Target                FY 2012 AFR
                                   Decision
                                                     Date
         The Small
         Business
         Admin1
         istration
         did not
         Maximize
 12-14   Recovery      07/02/12        *            06/30/13   None.
         for $171/1
         Million in
         Delinquent
         Disaster
         Loans in
         Liquidation
         Weakness1
         es Identi1
         fied during
         the FY 2011
         Federal                                               Not required since a management deci1
 12-15   Infor1        07/16/12     08/16/12           **      sion was made within the preceding
         mation                                                year/
         Security
         manage1
         ment Act
         Review

         The SBA’s
         Inappropri1
         ate Use of
         the Gov1                                              Not required since a management deci1
 12-16   ernment       08/06/12     09/11/12           **      sion was made within the preceding
         Purchase                                              year/
         Card for
         Construc1
         tion Pur1
         A Detailed
         Repayment
         Ability
         Analysis is
                                                               Not required since a management deci1
         Needed on
 12-18                 08/16/12     11/03/12           **      sion was made within the preceding
         High-
                                                               year/
         Dollar
         Early-
         Defaulted
         Loans

                                               45
!ppendix VII: Significant Recommendations
From Prior Reporting Periods Without Final Action as of March 31, 2013

                                                                                 Date of
  Report       Date                                                                         Final Action
                                        Recommendation                         Management
  Number      Issued                                                                        Target Date
                                                                                Decision
                         Establish internal controls that ensure that
                         OBO and OPGM are unable to modify con1
    9-12      3/31/09    tracts without the appropriate supporting doc1          3/31/09      10/15/09
                         umentation, including a statement of work/
                         Take steps to modify the contract to require the
                         QA/IV & V contractor to report all findings and
    9-17      7/30/09    recommendations to the Program Manager and              8/28/09      9/30/09
                         an independent QA Manager designated by the
                         CIO/
                         Establish a process for reviewing and accepting
    9-17      7/30/09    LMAS deliverables that complies with SDM                8/28/09      9/30/09
                         requirements/

                         Develop and execute a plan for achieving com1
                         pliance on existing and future loans/ Alterna1
                         tively, if achieving compliance is determined to
   10-01     10/20/09                                                            11/6/09       3/31/13
                         be not cost effective, seek additional funding or
                         a legislative change to the statutory flood insur1
                         ance requirement/
                         Implement a process to monitor the audit logs
   10-04      11/13/09   of all financial applications on a regular basis/       12/11/09      6/1/10

                         Reconcile Recovery Act contract awards report1
                         ed to FPDS-NG and Recovery/Gov and report to
   ROM                   Recovery/Gov all non-competitive contract
              4/15/10                                                            5/3/10        1/31/12
   10-14                 awards previously not reported to Recov1
                         ery/Gov including the eight contract actions
                         identified by the Ofjce of Inspector General/
                         Exclude the CRM contract awarded to Copper
   ROM                   River from SBA calculations used to determine
              6/29/10    the number of 8(a) program contracts and                3/28/11      9/30/11
   10-16
                         small business contracts for fiscal year 2009/

                         Work with the OCIO to establish measurable
                         outcomes for the CRM initiative and identify
   ROM                   the likelihood that a contractor could meet
              6/29/10    measurable outcomes in contract evaluation              3/28/11       5/15/11
   10-16
                         criteria for any future contracts under this initi1
                         ative/




                                                    46
                                                                          Date of
Report    Date                                                                       Final Action
                                  Recommendation                        Management
Number   Issued                                                                      Target Date
                                                                         Decision
                    Revise the LMAS QA plan to incorporate all the
 10-14   9/13/10    components required by the enterprise-wide            10/21/10     6/13/10
                    QA plan/

                    Take steps to hold TestPros accountable for
 10-14   9/13/10    performing the activities specified in its con1       10/19/10     6/13/10
                    tract/
                    Require the lenders to bring the 25 purchased
 ROM                loans with material deficiencies into compli1
         9/24/10                                                           4/1/11       1/31/13
 10-19              ance and recover the $375,259 in guaranties
                    paid/
                    Coordinate with SBA program ofjces to. im1
                    prove the vulnerability tracking and monitoring
                    process to fully address high and medium risk
                    vulnerabilities for key financial systems- ensure
                    that the vulnerability reports are reviewed and
                    analyzed on a regular basis- periodically moni1
 11-03   11/12/10                                                         12/8/10      4/20/11
                    tor the existence of necessary services and pro1
                    tocols running on servers and network devices-
                    and develop a more thorough approach to track
                    and mitigate patch management and configura1
                    tion management vulnerabilities identified dur1
                    ing monthly scans/
                    Develop a comprehensive security education
                    and training program for all IT security person1
 11-03   11/12/10                                                          2/7/11       6/1/11
                    nel and a method for monitoring the training
                    program/
                    Enforce an organization-wide configuration
                    management process, to include policies and
 11-03   11/12/10   procedures for maintaining documentation               2/7/11      4/30/11
                    that supports testing and approvals of software
                    changes/
                    Coordinate with SBA program ofjces to pre1
                    vent users from anonymously connecting unau1
 11-03   11/12/10   thorized devices by developing and implement1         2/10/11       4/15/11
                    ing procedures to ensure mandatory domain
                    authentication for IP address issuance/
                    Implement procedures and conduct audits of
 11-03   11/12/10   financial system software changes to ensure all       12/8/10       1/31/11
                    changes are sufjciently approved and tested/




                                                47
                                                                         Date of
Report    Date                                                                      Final Action
                                  Recommendation                       Management
Number   Issued                                                                     Target Date
                                                                        Decision
                    Work with the Chief Information Ofjcer to
                    perform an analysis of loans charged-off in pri1
 11-05   12/15/10                                                         2/9/11      03/15/13
                    or years to identify and correct any DCIA non-
                    compliance issues noted/
                    Ensure the newly implemented Funds Control
 ROM                System has adequate system controls in place
         12/15/10                                                         2/9/11      2/28/11
 11-01              to prevent allotments from exceeding appor1
                    tioned amounts/
                    Update the list of Major Systems to include all
                    the interfaces between each system and all oth1
                    er systems and networks, including those not
 11-06   1/28/11    operated by, or under the control of the agency      3/28/11      9/30/11
                    and obtain written Interconnection Security
                    Agreements for every SBA system that has an
                    interconnection to another system/
                    Establish a program at SBA to manage, control
                    and monitor system interconnections through1
                    out their lifecycle/ The program should encom1
 11-06   1/28/11                                                         3/28/11      9/30/11
                    pass planning, establishing, maintaining, and
                    terminating system interconnections, including
                    enforcement of security requirements/
                    Develop configuration management policies
                    and procedures that address purpose, scope,
 11-06   1/28/11    roles, responsibilities, management commit1          3/28/11      9/30/11
                    ment, coordination among organizational enti1
                    ties, and compliance/

                    Develop and maintain a centralized inventory
 11-06   1/28/11                                                         3/28/11      9/30/11
                    of all agency hardware and software/
                    Develop and test system disaster recovery plans
                    for all of SBA’s major systems at least annually
 11-06   1/28/11                                                         3/28/11      7/30/11
                    and initiate any necessary corrective actions
                    based on test results/
                    Exclude contracts SBAHQ-09-D-0009, SBAHQ-
                    10-D-0001, and Blanket Purchase Agreement
                    (BPA) SBAHQ-10-A-0001 and all associated
 11-08   2/25/11    delivery orders and BPA calls from SBA calcula1      3/30/11       1/31/12
                    tions used to determine the number of 8(a)
                    program contracts and small business contracts
                    for fiscal years 2009 and 2010/




                                               48
                                                                         Date of
Report    Date                                                                      Final Action
                                 Recommendation                        Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   Conduct a comprehensive review of data sub1
                   mitted to the Federal Procurement Data System
                   – Next Generation (FPDS-NG) for SBA con1
 11-08   2/25/11   tracts awarded to iTechnologies, reconcile all        3/30/11       1/31/12
                   discrepancies identified, and correct any inac1
                   curately reported data/
                   Research the $21,627,140 in this report to deter1
                   mine whether the award has been made or the
 ROM               funds should be de-obligated/ This research
         3/22/11                                                         10/6/11      6/30/12
 11-04             should result in these actions being posted to
                   FPDS/gov/
                   Deploy an independent statistical verification
 ROM               and validation of all SBA transactions awarded
         3/22/11                                                         10/6/11      6/30/12
 11-04             and subsequently reported to FPDS/gov/

                   Research the $695,157 in this report to deter1
                   mine the disposition of these awards and
 ROM               whether Recovery Act funds were actually used
         3/22/11                                                         10/6/11       1/31/12
 11-04             to fund the awards/ If not, these awards need
                   to be corrected in PRISM, FPDS/gov, and the
                   contract files/
                   Develop and implement a data quality plan that
 ROM               documents processes to ensure timely, accu1
         3/22/11   rate, and complete submission of contracts data       10/6/11      6/30/12
 11-04
                   to USASpending/gov/
                   Implement continuous monitoring procedures
                   to ensure that contractor-reported information
 ROM
         3/22/11   is correct and accurate, and that all prime con1      10/6/11      12/31/11
 11-04
                   tractors are accurately reporting the use of sub1
                   contractors/
                   Develop record designation and retention re1
                   quirements for all loan servicing documents
                   and coordinate with the Ofjce of Management
                   & Administration to incorporate this guidance
 11-10   3/29/11                                                         6/20/11      9/30/13
                   into SOP 50 52/ The requirements should spec1
                   ify which documents should be designated as
                   records, and therefore retained, and for how
                   long/




                                                 49
                                                                         Date of
Report    Date                                                                      Final Action
                                 Recommendation                        Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   Revise SOP 50 52 to include a requirement to
                   preserve the analyses performed to conduct all
                   servicing actions/ A summary of the analysis
                   should be present on the Form 327 and the de1
 11-10   3/29/11   tail of the analysis should accompany the SBA         6/20/11      9/30/13
                   Form 327 action/ The analysis should include
                   sufjcient detail to permit an outside party, not
                   connected with the transaction, to verify the
                   accuracy of the decision/
                   Take the appropriate steps to amend SBA’s se1
                   lection criteria to include errors identified in
                   GC’s anomaly reports, data on 8(a) contracting
 11-11   3/31/11                                                          7/7/11      12/31/11
                   activity, and inquiries to SBA’s 8(a) Business
                   Development staff on suspected problems on 8
                   (a) contract execution/
                   Take the appropriate steps to amend SBA’s se1
                   lection criteria to eliminate those criteria that
 11-11   3/31/11   do not indicate risk with the contracting activi1     7/12/11      12/31/11
                   ty, i/e/ availability to staff within commuting
                   distance/
                   Take the appropriate steps to develop and im1
                   plement a strategy that ensures contracting
 11-11   3/31/11   activities that meet SBA’s selection criteria are      7/7/11      12/31/11
                   identified, prioritized on a nation-wide basis,
                   and targeted for a surveillance review/
                   Take the appropriate steps to determine (a) the
                   level of effort needed to establish an effective
 11-11   3/31/11   monitoring process for small business procure1         7/7/11      12/31/11
                   ment activities and (b) the amount of resources
                   needed to implement such a process/

                   Take the appropriate steps to request resources
                   from the Agency or through the annual budget
 11-11   3/31/11                                                          7/7/11      12/31/11
                   process as appropriate (Based on the results
                   from Recommendation #3)/
                   Revise Chapter 4, How Do I Perform a Surveil1
                   lance Review? and corresponding appendices,
                   and update SOP 60 02 7, Prime Contracts Pro1
 11-11   3/31/11   gram, to modify definitions of rating categories       7/7/11      12/31/11
                   to minimize subjectivity within each rating
                   category, including examples of major and mi1
                   nor deficiencies/




                                              50
                                                                          Date of
Report    Date                                                                       Final Action
                                  Recommendation                        Management
Number   Issued                                                                      Target Date
                                                                         Decision
                    Revise Chapter 4, How Do I Perform a Surveil1
                    lance Review? and corresponding appendices,
                    and update SOP 60 02 7, Prime Contracts Pro1
                    gram, to include (1) 8(a) Business Development
                    Program specific requirements as identified in
 11-11   3/31/11                                                           7/7/11      12/31/11
                    the Partnership Agreements and Procedural
                    Notice 8000-632- and (2) 8(a) Business Devel1
                    opment Program in Appendix 7, Analysis of
                    Contract Files and Appendix 8, Interview Ques1
                    tions/
                    Revise Chapter 4, How Do I Perform a Surveil-
                    lance Review? and corresponding appendices,
                    and update SOP 60 02 7, Prime Contracts Pro-
 11-11   3/31/11    gram, to establish a formal follow-up process          7/7/11      12/31/11
                    that ensures PCRs receive copies of final reports
                    and follow-up on deficiencies and recommen1
                    dations/
                    Issue written instructions to remind surveil1
 11-11   3/31/11    lance review teams to address all interview and        7/7/11      12/31/11
                    contract review checklist questions/
                    Issue written instructions to remind surveil1
                    lance review teams to evaluate whether con1
 11-11   3/31/11    tracting activities are monitoring the perfor1         7/7/11      12/31/11
                    mance of work requirements on the contracts
                    that they administer/
                    Develop and implement a plan to ensure that
                    surveillance review reports are issued to the
 11-11   3/31/11                                                           7/7/11      12/31/11
                    contracting activity that was reviewed within a
                    specific timeframe/
                    Establish procedures to discontinue SBA's prac1
 11-14   6/2/11     tice of inappropriately obligating funds on con1       8/1/11      12/31/11
                    tracts in anticipation of future needs/
                    We recommend the CIO coordinate with SBA
                    program ofjces to prevent users from anony1
                    mously connecting unauthorized devices by
 12-02   11/14/11                                                         12/22/11     9/28/12
                    developing and implementing procedures to
                    ensure mandatory domain authentication for
                    Internet Protocol (IP) address issuance/
                    We recommend the CIO coordinate with SBA
                    program ofjces to ensure users’ access rights
 12-02   11/14/11                                                         12/22/11     3/30/12
                    are authorized prior to gaining access to finan1
                    cial systems/




                                                 51
                                                                          Date of
Report    Date                                                                       Final Action
                                  Recommendation                        Management
Number   Issued                                                                      Target Date
                                                                         Decision
                    We recommend the CIO coordinate with SBA
                    program ofjces to enhance security vulnerabil1
                    ity management processes/ Specifically, SBA
                    should. (a) redistribute procedures and train
                    employees on the process for reviewing and
                    mitigating security vulnerabilities, (b) periodi1
                    cally monitor the existence of unnecessary ser1
                    vices and protocols running on their servers
                    and network devices, (c) perform vulnerability
                    assessments with administrative credentials
 12-02   11/14/11                                                         12/22/11     03/31/12
                    and penetration tests on all SBA ofjces from a
                    centrally managed location with a standardized
                    reporting mechanism that allows for trending,
                    on a regularly scheduled basis in accordance
                    with NIST guidance, (d) develop a more thor1
                    ough approach to track and mitigate configura1
                    tion management vulnerabilities identified dur1
                    ing monthly scans, and (e) monitor security
                    vulnerability reports for necessary or required
                    configuration changes to their environment/
                    We recommend the CIO coordinate with SBA
                    program ofjces to fully implement the SBA
 12-02   11/14/11   entity wide incident management and response          12/22/11     2/29/12
                    program and ensure that procedures are en1
                    forced/
                    We recommend the CIO coordinate with SBA
                    program ofjces to ensure that information sys1
 12-02   11/14/11                                                         12/22/11     9/29/12
                    tems hosted by third parties comply with SBA
                    policy and NIST guidance/
                    We recommend the CIO coordinate with SBA
                    program ofjces to oversee the review and vali1
 12-02   11/14/11                                                         12/22/11     4/30/12
                    dation of financial system accounts on a quar1
                    terly basis/
                    We recommend the CIO coordinate with SBA
                    program ofjces to implement a process to
 12-02   11/14/11                                                         12/22/11     3/30/12
                    monitor the audit logs of all financial applica1
                    tions on a regular basis/




                                                52
                                                                         Date of
Report    Date                                                                      Final Action
                                  Recommendation                       Management
Number   Issued                                                                     Target Date
                                                                        Decision
                    We recommend that the Associate Administra1
                    tor, Government Contracting and Business De1
                    velopment revise the Goaling Guidelines for the                 Target date
 12-04   12/16/11   Small Business Preference Programs to include       Overdue         not
                    contracts awarded and/or performed overseas                     established/
                    in the small business goaling baseline begin1
                    ning with fiscal year 2011/
                    Submit to the Senate Homeland Security and
                    Government Affairs Committee and the House
                    Committee on Oversight and Governmental
                    Reform within 90 days of this memorandum a
                    plan that includes.
                                                                                    Target date
 12-07   3/8/12     a/ Measurable milestones for becoming               Overdue         not
                        compliant with IPERA-                                       established/
                    b/ Designation of an accountable senior agency
                        ofjcial- and
                    c/ The establishment of an accountability
                        mechanism, describing the actions the
                        agency will take to become compliant/
                    We recommend that the Associate Administra1
                    tor, Ofjce of Capital Access, research and cor1
                    rect loans that have not been reported within
                    the Electronic Loan Information Processing
 12-08   2/23/12                                                         5/6/12       12/31/12
                    System (ELIPS) for a significant length of time
                    (i/e/ 6 months or more) which contribute to
                    subsidy overstatements currently estimated at
                    $5/2 million/
                    We recommend that the Associate Administra1
                    tor, Ofjce of Capital Access, utilize the lender
 12-08   2/23/12    exception detail reports to identify and address     5/6/12        4/3/13
                    lenders that consistently do not report loans
                    and issue corrective action plans/
                    We recommend that the Associate Administra1
                    tor, Ofjce of Capital Access, collect the $2/5
 12-08   2/23/12    million in secondary market late penalty fees by     5/6/12        5/1/13
                    either billing lenders or offsetting against any
                    guarantee purchase amounts/




                                               53
                                                                         Date of
Report    Date                                                                      Final Action
                                 Recommendation                        Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   We recommend that the Associate Administra1
                   tor for Capital Access adjust the testing process
                   for 7(a) loan approvals to ensure all necessary
 12-10   3/15/12   documentation is obtained and a determina1            5/15/12     4/16/2013
                   tion is made as to whether the loans were ap1
                   proved in compliance with the relevant pro1
                   gram regulations and requirements/
                   We recommend that the Associate Administra1
                   tor for Capital Access, upon revising the im1
                   proper payments test procedures and estimat1
 12-10   3/15/12   ing an accurate rate of improper payments,            5/15/12      4/16/13
                   develop a corrective action plan for 7(a) loan
                   approvals that correctly addresses root causes
                   and will reduce improper payments/
                   We recommend that the Associate Administra1
                   tor for Capital Access require loan ofjcers to
                   thoroughly evaluate creditworthiness
 12-10   3/15/12   (including repayment ability) on early default        5/15/12      4/16/13
                   loans during both guaranty purchase and im1
                   proper payment reviews
                   We recommend that the Associate Administra1
                   tor for Capital Access, upon completing the
                   revised improper payment rate projection for 7
 12-10   3/15/12   (a) purchases, conduct a detailed and objective       9/26/12      4/30/13/
                   cost/benefit analysis for payment recapture
                   audits of 7(a) purchases/
                   We recommend that the Associate Administra1
                   tor for Capital Access, upon completing the
                   revised improper payment rate projection for 7
 12-10   3/15/12   (a) purchases program, revise the corrective          5/15/12     4/16/2013
                   action plan to identify all root causes of im1
                   proper payments and appropriate actions for
                   reduction/
                   We recommend that the Associate Administra1
                   tor for Capital Access adjust the testing process
                   for 504 loan approvals to ensure all necessary
 12-10   3/15/12   documentation is obtained and reviewed and a          5/15/12     4/16/2013
                   determination is made as to whether the loans
                   were approved in compliance with the relevant
                   SBA program regulations and requirements




                                               54
                                                                          Date of
Report     Date                                                                      Final Action
                                  Recommendation                        Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Establish a specialized unit of well-trained,
                    highly experienced loan specialists to perform
                    purchase reviews with the level of scrutiny nec1
 12-11R   3/23/12                                                         10/19/12     2/28/13
                    essary to identify all material deficiencies on
                    early-defaulted loans approved for $500,000 or
                    more/
                    Take the following actions for disaster loans in
                    liquidation status delinquent over 180 days that
                    are secured by collateral, but not specifically
                    exempt from referral to Treasury.
                       • Evaluate whether prompt foreclosure is
                         feasible/
                                                                                     Target date
                       • Initiate foreclosure proceedings promptly
 12-14    7/2/12                                                         Overdue         not
                         on loan collateral for which the NDLRC
                                                                                     established/
                         has determined that foreclosure is feasible/
                       • Charge off loans for which the NDLRC has
                         determined that foreclosure on the collat1
                         eral is not feasible and ensure transfer of
                         the debts to Treasury FMS for cross servic1
                         ing/
                    Immediately charge off all disaster loans in liq1
                                                                                     Target date
                    uidation status delinquent over 180 days and
 12-14    7/2/12                                                         Overdue         not
                    not secured by collateral, or specifically exempt
                                                                                     established/
                    from referral to Treasury/
                    Develop an overall strategy to timely imple1
                    ment audit recommendations issued by the
 12-15    7/16/12                                                         8/16/12      10/30/12
                    SBA OIG relating to FISMA security require1
                    ments/
                    Direct the NGPC to revise its purchase process
                    for high-dollar early-defaulted loans approved
                                                                                     Target date
                    by lenders to verify compliance with SBA’s re1
 12-18    8/16/12                                                        Overdue         not
                    payment ability requirements, including the
                                                                                     established/
                    performance of a detailed analysis of the lend1
                    ers’ computation of repayment ability/




                                                55
!ppendix VIII: Significant Recommendations 

October 1, 2012- March 31, 2013
 Report                                    Date
                     Title                                            Recommendation
 Number                                   Issued
          Benefits of Mentor Protégé                  Develop specific, measurements (outputs and
          Joint Ventures are Unknown.                 outcomes) to evaluate benefits of the joint ven1
  13-03   Robust Oversight is Needed     10/23/2012   ture agreements to the protégé/
          to Avoid Abuse and Assure
          Success
          Benefits of Mentor Protégé                  Assess the workload of the Specialists to ensure
          Joint Ventures are Unknown.                 they are able to carry out all of their responsibili1
          Robust Oversight is Needed                  ties related to the 8(a) program including better
          to Avoid Abuse and Assure                   management and monitoring of joint venture
  13-03                                  10/23/2012
          Success                                     arrangements/ As part of this assessment, con1
                                                      sider alternate approaches to service and moni1
                                                      tor 8(a) firms with mentor protégé and joint ven1
                                                      ture agreements/
          Independent Auditor's Re1                   Ensure that database administrator and system
          port on the SBA's FY 2012                   administrator access is restricted through role-
  13-04   Financial Statements           11/14/2012   based segregation of duties and managed
                                                      through an effective audit log review process/
          Independent Auditor's Re1                   Enforce an organization-wide configuration
          port on the SBA's FY 2012                   management process, to include policies and
  13-04   Financial Statements           11/14/2012   procedures for maintaining documentation that
                                                      supports testing and approvals of software
                                                      changes/
          The Small Business Admin1                   Create a more comprehensive improper payment
          istration's Improper Payment                detection checklist for reviewing 7(a) guaranty
  13-07   Rate for 7(a) Guaranty Pur1    11/15/2012   purchases to address the many requirements that
          chases Remains Significantly                reviewers must be familiar with when conducting
          Underestimated                              improper payment reviews/
          The Small Business Admin1                   Seek recovery of $1,016,116, less subsequent liqui1
          istration's Improper Payment                dation recoveries from American Business Lend1
  13-07   Rate for 7(a) Guaranty Pur1    11/15/2012   ing, Inc/ for loan number 3646765010 to Gregory
          chases Remains Significantly                L/ Ratcliff (Pioneer Discount Furniture, Inc/)/
          Underestimated




                                                56
Report                                     Date
                    Title                                           Recommendation
Number                                    Issued
         The Small Business Admin1                   Seek recovery of $714,444, less subsequent liqui1
         istration's Improper Payment                dation recoveries from Community South Bank
 13-07   Rate for 7(a) Guaranty Pur1    11/15/2012   for loan number 3076325004 to WaterWell In1
         chases Remains Significantly                vestments (Splash and Dash)/
         Underestimated

         The SBA Mismanaged Certain                  Recover $12,073 from iTechnologies for payments
 13-08   8(a) Information Technology    12/3/2012    the contractor received in duplicate/
         Contracts
         The SBA Mismanaged Certain                  Establish and implement an automatic interface
         8(a) Information Technology                 between PRISM and JAAMS to ensure that in1
 13-08                                  12/3/2012
         Contracts                                   voice payments are tied to contract number in1
                                                     stead of purchase order numbers/
         The SBA Mismanaged Certain                  Initiate debarment proceedings for TLE and its
         8(a) Information Technology                 ofjcials to prohibit future contracting with any
 13-08                                  12/3/2012
         Contracts                                   agency of the Executive Branch of the United
                                                     States government/
         The SBA Mismanaged Certain                  Conduct an internal control review of SBA’s ac1
         8(a) Information Technology                 quisition function in compliance with OMB Cir1
 13-08   Contracts                      12/3/2012    cular A-123 and OMB Memorandum, Conducting
                                                     Acquisition Assessments under OMB Circular A-
                                                     123/
         The SBA’s Loan Management                   Adopt a new IIP under LMAS to facilitate the
         and Accounting System In1                   transfer of data and move its new COBOL code to
 13-11                                  3/12/2013
         cremental Improvement Pro1                  a full production environment
         jects
         The SBA’s Loan Management                   Ensure that the Root Cause Analysis IIP be re1
         and Accounting System In1                   vised so that it conforms to the scope originally
         cremental Improvement Pro1                  approved by the BTIC/ The Root Cause Analysis
         jects                                       should identify the most critical business needs of
 13-11                                  3/12/2013
                                                     the SBA, analyze remaining issues when each
                                                     LMAS-IIP is completed, and develop plans to
                                                     prioritize additional projects to address SBA’s
                                                     most important business needs/
         The SBA’s Loan Management                   Implement a Quality Assurance program that
         and Accounting System In1                   reports compliance at the project level to the ESC
 13-11                                  3/12/2013
         cremental Improvement Pro1                  and the BTIC, at regular intervals/
         jects




                                                57
Report                                       Date
                      Title                                                Recommendation
Number                                      Issued
          The SBA’s Loan Management                        Implement an Independent Verification and Vali1
          and Accounting System Incre1                     dation program for the LMAS-IIP that tests and
  13-11                                   3/12/2013
          mental Improvement Projects                      validates that each IIP meets its program and func1
                                                           tional requirements/
          SBA’s Inappropriate Contract1                    Implement procedures to ensure that Contracting
          ing Practices to reconfigure                     Ofjcers and Contracting Ofjcer Representatives
  13-12   Space for the Ofjce of Inter1   3/26/2013        properly review invoices for compliance with the
          national Trade                                   terms of the contract and the scope of work/
          SBA’s Inappropriate Contract1                    For purchase order SBAHQ-11-M-0018, review all
          ing Practices to reconfigure                     invoices and make a determination of whether all
  13-12   Space for the Ofjce of Inter1   3/26/2013        the work that was billed to the SBA was actually
          national Trade                                   performed/ If not, the CO should take appropriate
                                                           action/
          The SBA’s 417 Unauthorized                       Determine whether it is appropriate and feasible to
          Commitments Impacted Mis1                        take administrative and/or legal actions against
  13-14   sion-Related Services and In1   3/28/2013        SBA employee(s) making unauthorized commit1
          creased Costs                                    ments in instances where an unauthorized com1
                                                           mitment cannot be ratified/
          The SBA’s 417 Unauthorized                       In the short-term, issue a Procedural Notice identi1
          Commitments Impacted Mis1                        fying what an unauthorized commitment is and
          sion-Related Services and In1                    that under no circumstances should an unauthor1
          creased Costs                                    ized commitment occur/ This Procedural Notice
13-14                                     3/28/2013
                                                           should also state that administrative and/or legal
                                                           action may be taken against those employees who
                                                           commit the Government without the authority to
                                                           do so/
          The SBA’s 417 Unauthorized                       Update and implement the Agency Standard Oper1
          Commitments Impacted Mis1                        ating Procedures for acquisitions to include the
13-14     sion-Related Services and In1   3/28/2013        information provided in the Procedural Notice on
          creased Costs                                    unauthorized commitments/




                                                      58
!ppendix IX: osponsored & Other !ctivities


Name/Subject                            Name of                                         Event        Date Fully
   of Event                           Cosponsor(s)                                     Location      Executed
SBA/HCCI           New York DO - Harlem Congregations for Community
Small Business     Improvement
Development                                                                            New York,
                                                                                                     10/12/2012
Micro Enter1                                                                             NY
prise Seminar
Series I and II
SBA/NYC            New York DO - New York City Lesbian, Gay, Bisexual, Transgender,
LGBTQS. Part1                Queer, Straight Chamber of Commerce, Inc/
ners in Small
Business Devel1                                                                         Bronx, NY    10/12/2012
opment and
Success Work1
shop Series
 SBA/Microsoft                          HQ/OCPL – Microsoft
   Tweetup                                                                            Portland, OR   10/31/2012

Torrington Busi1   Wyoming DO - Goshen County Economic Development                    Torrington,
ness Roundtable    Corporation, Wyoming Women's Business Center                                       11/6/2012
                                                                                         WY
Export Trade       Santa Ana DO - University Enterprises Corporation - Cal1
Assistance Pro1    ifornia State University San Bernardino - Inland Empire
                                                                                       Riverside,
gram               Small Business Development Center, Coachella Valley
                                                                                       CA, Palm       11/6/2012
                   Small Business Development Center, U/S Commercial
                                                                                      Springs, CA
                   Service, Riverside County Economic Development Agen1
                   cy - Ofjce of Foreign Trade
Business           Wyoming DO - Atlantic City Federal Credit Union, Wind               Washakie,
                                                                                                      11/6/2012
Roundtables        River Development Fund                                                WY
The Washing1       Arkansas DO-Washington Foundation
ton Foundation
- Lil' Jacob
                                                                                      Eudora, AR      11/6/2012
Learning Cen1
ter - Veterans
Summit I
Awards Cere1       New Hampshire DO - New Hampshire Bankers Associa1
mony and Edu1      tion, New Hampshire Small Business Development Cen1
cational Pro1      ter - University of New Hampshire, SCORE Merrimack
                                                                                      Concord, NH    11/23/2012
gram for NH        Valley Chapter #199, Center for Women's Business Ad1
SBA Participat1    vancement - Southern New Hampshire University
ing Lenders
Selling to the     West Virginia DO - Regional Contracting Assistance Cen1            World Wide
Government         ter, West Virginia SCORE Chapter #256                              Web, Beck1
Training Series                                                                         ley, WV
2013-2014                                                                             Charleston,
                                                                                                     11/29/2012
                                                                                       WV Fair1
                                                                                       mont, WV
                                                                                      Morgantown,
                                                                                          WV


                                                           59
Name/Subject                           Name of                                Event        Date Fully
    of Event                         Cosponsor(s)                            Location      Executed
Train Your Peo1    Connecticut DO-West Hartford Chamber of Commerce
ple, Grow Your                                                              West Hart1
                                                                                            1/8/2013
Business                                                                     ford, CT

Vermont Entre1     Vermont DO - Johnson State College Department of
preneurship        Business and Economics, Vermont Agency of Commerce
                                                                            Montpelier,
Week               and Community Development, Vermont Commission on                         1/8/2013
                                                                               VT
                   Women, Vermont Small Business Development Center,
                   Vermont Women’s Business Center
Women in Busi1     Connecticut DO-West Hartford Chamber of Commerce
ness for Women                                                              West Hart1
                                                                                            1/8/2013
Who Mean                                                                     ford, CT
Business
SBA/Brooklyn       New York DO-Brooklyn Public Library
Business Library
(Small Business                                                             Brooklyn, NY    1/8/2013
Boot Camp(

Contracting        Vermont DO - Vermont Technical College - Vermont
Workshop           Tech Enterprise Center - Vermont Small Business Devel1   Montpelier,
                                                                                            1/9/2013
Series             opment Center, Vermont Procurement Technical Assis1         VT
                   tant Center
Safety & Health    El Paso DO-El Paso Community College Contract Op1
Courses            portunities Center                                       El Paso, TX     1/9/2013

Doing Business     Hawaii DO - State of Hawaii Department of Transporta1
with the           tion, Honolulu Minority Business Center                  Honolulu, HI
                                                                                            1/10/2013
Government                                                                   & Hilo, HI
Workshops
“Doing Business    Michigan DO - Procurement Technical Assistance Cen1
With0/” Federal    ters of Michigan, SCORE Detroit Chapter 18, Michigan
Procuring          Small Business and Technology Development Center,        Livonia, MI     1/11/2013
Agencies           Center for Empowerment and Economic Development,
                   VetBizCentral
Small Business     Santa Ana DO - City of Mission Viejo                     Mission Vie1
                                                                                            1/17/2013
Seminar Series                                                                 jo, CA
Small Business     Santa Ana DO - City of Cypress - Redevelopment Pro1
Seminar Series     jects Ofjce                                              Cypress, CA     1/17/2013

Small Business         Wyoming DO - Laramie County Library System
                                                                             Cheyenne,
Workshop                                                                                    1/17/2013
                                                                                WY
Series
Straight Talk         Buffalo DO - SCORE Buffalo Niagara Chapter #45
2013 & Straight                                                             Buffalo, NY     1/23/2013
Talk Series




                                                     60
Name/Subject                            Name of                               Event         Date Fully
   of Event                           Cosponsor(s)                           Location       Executed
Smart Business    Georgia DO - Urban League of Greater Atlanta, Inc/
Talk                                                                        Atlanta, GA      1/23/2013

OPERATION.        Syracuse DO - New York Business Development Corpora1
Start Up and      tion, M&T Bank, Onondaga Community College,
Grow              Onondaga Small Business Development Center, Institute
                  for Veterans and Military Families, WISE Women’s Busi1
                  ness Center, The Tech Garden, Syracuse SCORE Chapter      Syracuse, NY     1/23/2013
                  98, Martin J/ Whitman School of Management-
                  Department of Entrepreneurship & Emerging Enterprises-
                  Falcone Center for Entrepreneurship at Syracuse Univer1
                  sity
Success Series    New York DO - Zhejiang Chamber of Commerce of Amer1
2013              ica                                                       Flushing, NY     1/23/2013

Oklahoma          Oklahoma DO - The Journal Record Publishing Company
How-to-Guide                                                                 Oklahoma
                                                                                            1/30/2013
for Small Busi1                                                              Statewide
nesses
International     New York DO - Zhejiang Chamber of Commerce of Amer1
Trade Show        ica, e888 International                                   Flushing, NY    1/30/2013
2013
Raising Your      West Virginia DO - Charleston West Virginia SCORE
                                                                            Spencer, Mt/
Credit Score      Chapter #256, Consumer Credit Counseling Service of the
                                                                            Hope, Craigs1   1/30/2013
Workshops         Midwest, Inc/dba Apprisen, Central Appalachian Empow1
                                                                             ville, WV
                  erment Zone
Los Angeles       Los Angeles DO - The Business Resource Group, Inc
DO Lender
                                                                            Glendale, CA    1/30/2013
Training &
Awards
SBA/NACC          New York DO - New American Chamber of Commerce
(Youth & Adult
Small Business                                                              Brooklyn, NY    1/30/2013
Boot Camp
Series(
Small Business    Syracuse DO - New York Business Development Corpora1
Excellence        tion                                                      Syracuse, NY-
                                                                                             2/11/2013
Award                                                                        Albany, NY
Recognition
Government        Rhode Island DO - Johnson & Wales University - Rhode
Contracting       Island Small Business Development Center, Center for
                                                                            Providence,
Workshop          Women & Enterprise, Rhode Island Economic Develop1                         2/11/2013
                                                                                RI
Series            ment Corporation - Rhode Island Procurement Technical
                  Assistance Center




                                                     61
Name/Subject                            Name of                                Event        Date Fully
   of Event                           Cosponsor(s)                            Location      Executed
“Small Business   Richmond DO - City of Chesapeake Department of Eco1
Growth            nomic Development                                          Chesapeake,
                                                                                             2/11/2013
Strategies”                                                                      VA
Conference
U/S/ Small        Wisconsin DO-SCORE Southeast Wisconsin Chapter 28,
Business          Reinhart Boerner Van Deuren s/c/, The Business Journal
                                                                             Milwaukee,
Administration    of Greater Milwaukee, Associated Bank                                      2/11/2013
                                                                                WI
2013 Awards
Breakfast
Small Business    Rhode Island DO - Johnson & Wales University - Rhode
Workshop          Island Small Business Development Center, Center for       Providence,
                                                                                             2/11/2013
Series            Women & Enterprise, SCORE Joseph G/E/ Knight Chapter           RI
                  13
SBA/Visa          HQ/OIT - Visa U/S/A, Inc/
                                                                                Chal1
Export Video                                                                                 2/21/2013
                                                                              lenge/gov
Contest
Spring Business   Vermont DO - Champlain Valley Ofjce of Economic Op1
Fair              portunity Micro Business Development Program, City of      Burlington,
                                                                                            2/25/2013
                  Burlington-Community and Economic Development                  VT
                  Ofjce
Webinar Lead1     HQ/OCPL - W2O Group                                        World Wide
ership Series                                                                               2/28/2013
                                                                               Web
2013 SBA          Mississippi DO - South Mississippi Contract Procurement
Mississippi       Center
Statewide 8(a)
Application                                                                  Gulfport, MS    3/4/2013
Conference and
HUBZone
Conference
Business Semi1    North Dakota DO - Alerus Financial
                                                                              Fargo, ND,
nar Planning
                                                                             Grand Forks,    3/4/2013
for Success
                                                                                 ND
Techniques
2013 SBA Small    Nevada DO - Southern Nevada Public Television dba Ve1
Business          gas PBS                                                     Las Vegas,
Awards                                                                                       3/7/2013
                                                                                 NV
Luncheon

Salute to Small   South Carolina DO - South Carolina Chamber of Com1
Business          merce, University of South Carolina - Small Business De1
                  velopment Center of South Carolina, South Carolina De1
                                                                              Columbus,
                  partment of Commerce, ECI/Find New Markets, SCORE                          3/7/2013
                                                                                  SC
                  Midlands SC Chapter, South Carolina Manufacturing Ex1
                  tension Partnership, U/S/ Department of Agriculture -
                  Rural Development Administration



                                                    62
 Name/Subject                               Name of                               Event         Date Fully
    of Event                              Cosponsor(s)                           Location       Executed
2013 Albany        Syracuse DO - New York Business Development Corpora1
Matchmaker         tion, University at Albany - Small Business Development
                   Center, Albany-Colonie Chamber of Commerce, New               Albany, NY      3/7/2013
                   York State Contract Reporter

Opportunity        HQ/GCBD- Women Impacting Public Policy                       Washington
Forum Event                                                                      DC, Seattle
Series                                                                           WA, New
                                                                                York, Atlan1     3/8/2013
                                                                                ta, Phoenix,
                                                                                San Francis1
                                                                                co, Deventer
2013 SBA           Baltimore DO - Maryland Small Business Week Awards
Maryland Small     Program, Inc/
Business Awards                                                                  Woodlawn,
                                                                                                 3/11/2013
Luncheon and                                                                       MD
Trade Show

1st Annual SBA     Michigan DO - SCORE Detroit Chapter 18
Great Lakes
Lenders’                                                                         Detroit, MI    3/14/2013
Conference

Emerging Lead1     St/ Louis DO - SCORE St/ Louis Chapter 21, Small Busi1
ers                ness & Technology Development Center, Veteran’s Busi1
Initiative         ness Resource Center, Grace Hill Women’s Business Cen1
                                                                                St/ Louis, MO   3/14/2013
                   ter, Procurement Technical Assistance Center, Midwest
                   Regional Bank, Commerce Bank, St/ Louis Development
                   Corporation
Innovation         Wichita DO - Mid-America Manufacturing and Technolo1
Strategies Webi1   gy Center, Inc/, Fort Hays State University - Kansas Small
                                                                                World Wide
nars and Work1     Business Development Center                                                  3/14/2013
                                                                                Web, Kansas
shops for Manu1
facturers
Latino Entrepre1   Santa Ana DO - Chamber of Commerce for Hispanic En1
neurs 2013 Con1    trepreneurs
ference – Think1
ing Out of the
                                                                                Anaheim, CA     3/14/2013
Box and Pros1
pering With
Your Business

Small Business     St/ Louis DO - Small Business Week of Eastern Missouri,
Week 2013          Inc/                                                         St/ Louis, MO   3/19/2013




                                                     63
Name/Subject                            Name of                             Event        Date Fully
   of Event                          Cosponsor(s)                          Location      Executed
Workshop.        Baltimore DO - Business and Professional Woman
“Ten Reasons A
Business Fails                                                            Timonium,
                                                                                          3/21/2013
and How to                                                                   MD
Turn It
Around”
Meet the         Maine DO - Bangor SCORE Chapter #314, Maine Small
Lenders          Business Development Centers, Maine Small Business
                                                                          Bangor, ME      3/21/2013
                 Development Centers, Maine Centers for Women, Work
                 and Community
Meet the         New York DO - South Bronx Overall Economic Develop1
Lenders -        ment Corporation, Lehman College - Small Business De1
Veterans and     velopment Center
                                                                           Bronx, NY      3/21/2013
Small Business
Loan
Workshop
9th Annual       Puerto Rico DO-Colegio de Ingenieros y Agrimensores de
Government       Puerto Rico
Contracting                                                               Hato Rey, PR   3/22/2013
Matchmaking
Event
Small Business   Puerto Rico DO-Puerto Rico Bankers Association
Week Breakfast
                                                                          San Juan, PR   3/22/2013
and Awards
Ceremony
Opportunities    Puerto Rico DO-Federal Deposit Insurance Corporation,
for Small        Federal Reserve Bank of New York, Puerto Rico Small
Business in      Business & Technology Development Center, Puerto Rico
                                                                          San Juan, PR   3/22/2013
Government       Federal Contracting Center
Procurement
Forum
Houston          Houston DO - SCORE Houston Chapter 37
District Small
Business Week                                                             Houston, TX    3/29/2013
Awards Event
2013
Annual Cele1     Richmond DO - Virginia Small Business Development
bration of       Center Network, SCORE Richmond Chapter 012
Small Business                                                            Richmond,
                                                                                         3/29/2013
Communities                                                                   VA
in Virginia
Luncheon




                                                  64
!ppendix X: Legal !ctions Summary

October 1, 2012-March 31, 2013
	
                  Jointly
State   Program                       Alleged Violation(s) Prosecuted                    Legal Action
                   with
                            The owner of a maintenance and repair services firm       Owner indicted
                  IRS/CI    failed to file corporate or personal tax returns from
                  Army/     2002 to 2009. The owner is alleged to have provided
 AL       BL                false and unfiled tax returns to secure an SBA-
                   CID
                   DCIS     guaranteed $300,000 line of credit and to maintain his
                            company‘s certification as an 8(a) firm.
                            A former SBA employee made approximately                  Former employee
                            $30,553 of personal, unauthorized purchases using the     sentenced to
                            government purchase card assigned to the Alabama          4 months in prison,
                            District Office. She also filed 59 false travel vouch-    36 months of super-
 AL       IA      None      ers, resulting in her receiving about $21,905 from the    vised release (to
                            SBA that she was not entitled to receive. In addition,    include 4 months of
                            she made approximately $3,346 of unauthorized pur-        home detention),
                            chases on her government travel card.                     and restitution of
                                                                                      $49,612.
                            The seller of a specialty auto parts business provided    Seller indicted and
                            the $260,000 equity injection that the buyer was re-      pled guilty.
                            quired to pay in order to secure an SBA-guaranteed
 AL       BL      None      loan of $1,529,000. The seller created and submitted
                            false bank statements, checks, and certificate of de-
                            posit receipts to make it appear that the equity injec-
                            tion funds were a gift from the buyer’s grandmother.

                            An individual obtained a $180,400 SBA disaster loan       Individual entered
                            for property damage sustained during the 2008 Arkan-      into a civil settle-
 AR       DL      None      sas flooding disaster. The individual falsely claimed     ment and agreed to
                            damages to a property that was not his primary resi-      pay the Government
                            dence at the time of the disaster.                        $200,000.
                            An individual submitted altered bank statements and       Individual pled
                            false rental agreements in order to obtain an SBA Sec-    guilty to a supersed-
                            tion 504 loan, as well as two mortgage loans, by using    ing information.
                            his father’s identity. He falsely represented that his
 AZ       BL       FBI
                            father owned various properties and businesses, had
                            large amounts of cash on hand, and earned an annual
                            salary of $110,000. The total loss relating to the Sec-
                            tion 504 loan is $2,402,099.03




                                                 65
                  Jointly
State   Program                      Alleged Violation(s) Prosecuted                    Legal Action
                   with
                            When applying for an SBA-guaranteed Recovery Act         President indicted.
                            loan in the amount of $1,750,000, the president of a
CA        BL       None     management services firm allegedly failed to disclose
                            personal and corporate debts.
                            Government officials received bribes from partici-       Three individuals
                            pants in SBA programs (i.e. 8(a), Alaska Native Cor-     and one company
                            poration, Service-Disabled/Veteran- Owned (SDVO),        charged by criminal
                            etc.) in return for the award of contracts. The same     information. Two of
                            government officials then certified receipt of goods     these individuals
                            and services and authorized payment of fraudulent        pled guilty. Princi-
                     FBI    invoices submitted by the contractors. The contrac-      pals of seven differ-
                   IRS/CI   tors then provided a portion of the proceeds to the      ent government
DC        GC       Army/    government officials, paid kickbacks to other contrac-   contractors sen-
                    CID     tors, and retained portions for themselves. The bribe    tenced to a total of
                    DCIS    and kickback payments exceed $30 million.                293 months in pris-
                                                                                     on, 252 months su-
                                                                                     pervised release,
                                                                                     and restitution of
                                                                                     $10,790,894.90. In
                                                                                     addition, forfeitures
                                                                                     equal $4,055,063.
                            A loan agent recruited an unqualified buyer to obtain    Loan agent charged
                            a $1.76 million SBA-guaranteed loan to purchase a        by criminal infor-
                            gas station/convenience store. The loan agent pre-       mation and pled
                            pared counterfeit investment account statements,         guilty.
                            cashier’s checks, and a bogus management résumé, to
 IL       BL       USPIS
                            make the buyer appear qualified to the lender and
                            SBA. He also recruited a third party to front the down
                            payment needed by the buyer and directed the use of
                            loan proceeds to repay that third party after closing.

                            The owner of a construction company falsified his        Owner sentenced to
                            service disability in order to claim SDVO small busi-    87 months in prison,
                   DCIS     ness status. Using this status, he obtained 11 federal   3 years supervised
 KS       GC      GSA/OIG   government contracts, valued at over $6.83 million,      release, and ordered
                  VA/OIG    which his company would not have been otherwise          to forfeit
                            entitled to receive.                                     $6,836,277.94.




                                                66
                   Jointly
State   Program                        Alleged Violation(s) Prosecuted                       Legal Action
                    with
                             SBA appointed an individual to liquidate a portfolio         Individual indicted.
                             of small business concerns pursuant to the Small Busi-
                             ness Investment Company Program. The individual
KY        IC       None      allegedly diverted more than $59,000 in sale proceeds
                             into a fraudulently opened bank account and convert-
                             ed those proceeds for his personal use.
                             Two officers of a large business submitted false state-      The two officers
                             ments to the SBA in order to obtain HUBZone certifi-         and two firms
                             cation for a “front” company they created because            agreed to a civil
                             their large company was not eligible for HUBZone             settlement of
                             status. They then submitted false claims to the Army         $6,250,000 to re-
                             when using the fraudulently obtained HUBZone certi-          solve the allega-
                             fication to procure Army contracts to build a court-         tions.
KY        GC       DCIS      house and to complete repairs to Army facilities. The
                             officers concealed from the government the fact that
                             the small company did not operate as an independent
                             entity but instead shared facilities, equipment, person-
                             nel, insurance, and bonding with the large business.
                             The HUBZone front company was also financially
                             dependent on the large business.
                             A husband and wife obtained a $560,000 SBA-                  Couple indicted.
                             guaranteed loan to purchase a furniture store. The
                             couple allegedly misrepresented the value of the col-
 LA       BL       None      lateral for the loan; sold the collateral business person-
                             al property without the lender’s knowledge; and falsi-
                             fied their personal financial statements.
                             An individual altered repair invoices and filed them         Individual pled
                             with the SBA in support of a $289,000 disaster loan          guilty.
 LA       DL      DHS/OIG    she obtained for her residence, which had been dam-
                             aged by Hurricane Katrina.
                             The owner of a dental practice obtained a $430,500           Owner pled guilty
                             disaster loan to repair his office, which had been de-       to a superseding
                             stroyed by Hurricane Katrina. He agreed to use as            indictment.
                             collateral another property where he was to operate
                             his surgical practice and fixtures and equipment that
                    FBI      he was to purchase with the loan funds. The investi-
 LA       DL                 gation found the collateral property to be in disrepair,
                  HUD/OIG
                             i.e. unfinished walls; no permanent electrical power;
                             and no furnishings, fixtures, or equipment. In addi-
                             tion, the owner submitted fraudulent invoices to the
                             SBA in the amount of $56,449.91 and used SBA
                             funds for living expenses and gambling.




                                                  67
                  Jointly
State   Program                       Alleged Violation(s) Prosecuted                     Legal Action
                   with
                            The co-owner of a construction company is alleged to       Co-owner indicted.
                            have falsely claimed SDVO status for his company.
                  VA/OIG    The individual certified that service-disabled veterans
                  GSA/OIG   were president and majority owner(s) of the company;
MA        GC
                   Army/    however, he was the one who actually founded and
                    CID     operated the company and he was not a veteran. The
                            company was awarded in excess of $100 million in
                            SDVO set-aside contracts.
                            A former SBA employee provided altered copies of           Second individual
                            her own Leave and Earnings Statement (LES) to an-          pled guilty. Both
                            other individual to enable that individual to finance an   sentenced to 36
MD        IA       None     automobile. The altered LES reflected that the other       months of proba-
                            individual was an SBA employee even though she             tion.
                            never worked at SBA and was not employed at the
                            time.
                            Individuals encouraged prospective borrowers to ap-        Two additional indi-
                            ply for SBA 7(a) business loans using the services of      viduals indicted and
                            their company. The individuals submitted fraudulent        one other pled
                            SBA loan applications and supporting documentation         guilty. Three indi-
                            (e.g. bank statements, cashier’s checks, IRS docu-         viduals sentenced to
                            ments) on behalf of their clients. These fraudulent        a total of 84 months
                    FBI
MD        BL                documents falsely enhanced the creditworthiness of         in prison, 156
                   USPIS
                            the borrowers and made it appear that they had more        months of super-
                            money for their equity injections than they actually       vised release, resti-
                            did. To date, the conspiracy has resulted in losses of     tution of
                            over $100 million to the SBA.                              $2,104,752.52, and
                                                                                       criminal forfeiture
                                                                                       of $47,921,900.
                            The owner of a marketing firm conspired with a for-        Owner pled guilty
                            mer bank official and others by allowing his own back      to superseding in-
MO        BL        FBI
                            account to be used to launder money in return for          formation.
                            $2,000.
                            The owner of a wireless internet provider obtained a       Owner pled guilty
                            150,000 SBA Express loan in the name of another            to criminal infor-
                            firm. The owner signed documents stating he was the        mation.
                            president of the other firm and that the loan proceeds
MO        BL        FBI
                            would be used for “working capital.” In reality, he
                            did not own, operate, or manage the other firm and the
                            loan proceeds were used to benefit other individuals
                            and business entities.




                                                68
                  Jointly
State   Program                      Alleged Violation(s) Prosecuted                     Legal Action
                   with
                            When applying for SBA financing, an individual pur-       Individual sentenced
                            ported to have never been charged, arrested, or con-      to 3 years of proba-
                            victed of any criminal offense. In reality, she had       tion.
                            been charged with illegally signing a petition, passing
MO        BL        FBI
                            a bad check, and possession of a controlled substance.
                            As the registered agent for her father’s business, she
                            obtained two SBA-guaranteed loans totaling
                            $350,000.
                   USSS     A former loan officer provided inaccurate and mis-        Former loan officer
                   FDIC/    leading information in order to secure a $2 million       pled guilty.
                    OIG     SBA-guaranteed loan for a couple and their business.
ND        BL
                    FBI
                  DHS/ICE
                    TPD
                            An organized group of individuals obtained credit         Individual pled
                            cards and loans from various lending institutions us-     guilty.
                  IRS/CI    ing false identities, documents, and business names.
 NJ       BL                One of these individuals obtained three SBA Express
                  ENJPD
                            loans totaling $130,000 and another loan for $25,000
                            using the names of two fictitious companies.
                            An individual provided false and fictitious loan appli-   Individual found
                            cation documents, invoices, and other supporting pa-      guilty in jury trial.
                            perwork to SBA and the bank to obtain a $1,715,650        Second individual
OH        BL        FBI     SBA 7(a) loan for a tire recycling plant. A second        pled guilty to a
                            individual had knowledge of these felonies and con-       criminal infor-
                            cealed them from authorities.                             mation.
                            An individual provided relatives with invoices and        Individual sentenced
                            receipts from the reconstruction of her own home,         to 3 years of proba-
                            which was being repaired with the help of an SBA          tion, a $500 fine,
                            Katrina disaster loan. She was fully aware that her       and restitution of
TX        DL      DHS/OIG
                            relatives intended to alter the documents and fraudu-     $26,814.85 to be
                            lently submit them to the SBA as evidence of recon-       paid jointly with her
                            struction on their home for which they had also ob-       relatives.
                            tained an SBA loan.




                                                69
                  Jointly
State   Program                       Alleged Violation(s) Prosecuted                       Legal Action
                   with
                            A real estate broker/bank director was involved in an        Broker/bank direc-
                            invoice scheme involving approximately                       tor sentenced to
                            $1 million in SBA disaster loans. An SBA disaster            108 months in pris-
                            business loan was approved to repair/replace more than       on, 3 years super-
TX        DL      DHS/OIG   40 rental properties purportedly damaged by Hurricane        vised release, and a
                            Ike. The broker/bank director, with assistance from          $30,000 fine.
                            contractors, family members, and employees, created
                            overinflated and false repair invoices to submit to the
                            SBA.
                            A retired judge made false statements regarding the          Retired judge pled
                            location of his primary residence, the address for his       guilty.
                            homestead exemption, and the payment of the re1
TX        DL      DHS/OIG
                            quired equity injection/ These statements were made
                            in order to obtain a $125,000 SBA loan to reconstruct
                            property damaged by Hurricane Ike/
                            A husband and wife obtained a $420,000 SBA-                  Husband and wife
                            guaranteed loan to purchase a convenience store/ The         indicted.
                            couple purported to the lender that most of the equity
                            injection was coming from the sale of a previously-
TX        BL       None     owned convenience store/ In reality, the couple had
                            already depleted most of those funds/ Instead they
                            allegedly secured lines of credit under different com1
                            pany names and did not disclose these additional
                            debts to the lender/
                            The owner of a bowling alley obtained two disaster           Owner indicted.
                            loans totaling $1,884,100. He allegedly submitted in-
TX        DL        FBI     flated and unpaid invoices to SBA in order to receive
                            payments on the loan. Both loans were fully disbursed.
                            In order to qualify as a Service-Disabled/Veteran-           Owner indicted.
                            Owned small business, the owner of a government con-
                            tracting firm allegedly falsified the credentials of his
                            company’s engineers as well as his company’s office
TX        GC      VA/OIG
                            location, number of employees, and past projects. The
                            company was awarded an SDVO small business set-
                            aside contract, and ten task orders under that contract,
                            with a cumulative value of $1,587,952.
                            Five individuals falsely represented to the government       Five individuals
                   NASA/    that a particular security contractor was eligible for the   charged by crimi1
                    OIG     8(a) program when, in reality, the company was con1          nal information
 VA       GC
                   DCIS     trolled by a second security contractor/ Over $31 mil1       and pled guilty/
                  DHS/OIG   lion in 8(a) and small business set-aside contracts were
                            fraudulently obtained/




                                                 70
                     Jointly
State   Program                           Alleged Violation(s) Prosecuted                    Legal Action
                      with
                                An individual participated in a multi-million dollar      Individual pled
                                fraud scheme involving bogus treasury checks and tax      guilty/
 VA         BL         FBI      returns/ In addition, the individual misrepresented his
                                citizenship status on SBA-guaranteed Section 504 loan
                                documents/


Program Codes: BL=Business Loans- DL=Disaster Loans- GC=Government Contracting and Section 8(a) Busi1
ness Development- IA=Integrity Assurance- IC=Small Business Investment Company .

Joint-investigation Agency Acronyms: Army/CID=U/S/ Army/Criminal Investigation Division- DCIS=Defense
Criminal Investigative Service- DHS/ICE=Department of Homeland Security/Immigration and Customs Enforce1
ment- DHS/OIG=Department of Homeland Security/OIG- HUD/OIG=Department of Housing and Urban De1
velopment/OIG- ENJPD=Englewood New Jersey Police Department- FBI=Federal Bureau of Investigation- FDIC/
OIG=Federal Deposit Insurance Corporation/OIG- GSA/OIG=General Services Administration/OIG- IRS/
CI=Internal Revenue Service/Criminal Investigation- NASA/OIG=National Aeronautics and Space Administra1
tion OIG- TPD=Tampa Police Department- USPIS=United States Postal Inspection Service- USSS=United States
Secret Service- VA/OIG=Department of Veterans Affairs/OIG/




                                                    71
!ppendix XI: External Peer Reviews


Section 5(a) of the IG Act provides the requirements           Investigations
for reporting the results of peer reviews in OIG Semi1
annual Reports to Congress/ The following infor1               Section 6(e)(7) of the IG Act, Attorney General
mation is provided in accordance with these require1           Guidelines for Offices of Inspector General with
ments                                                          Statutory Law Enforcement Authority, and the CI1
                         ***                                   GIE Quality Standards for Investigations require
Auditing                                                       external peer reviews of OIG investigative func1
                                                               tions be conducted every 3 years/
Generally Accepted Government Auditing Standards
(GAGAS) issued by the Government Accountability                                        ***
Ofjce (GAO) require that audit organizations per1
forming audits and attestation engagements in ac1              The OIG was not subject to a peer review during
cordance with GAGAS must have an external peer                 this semiannual reporting period/ The Department
review performed by reviewers independent of the               of Veteran’s Affairs (VA) OIG conducted the last
audit organization being reviewed at least once every          peer review of the OIG, and issued its final report
3 years/                                                       December 21, 2011/ The VA OIG found the system
                                                               of internal safeguards and management procedures
The OIG did not have a peer review conducted dur1              for the investigative function of the SBA OIG Com-
ing this semiannual reporting period/ The last peer            pliant with the quality standards established by the
review of the OIG was conducted by the National                CIGIE and the applicable Attorney General Guide1
Aeronautics and Space Administration Ofjce of In1              lines (OIGs can be assessed as either Compliant or
spector General, which issued its final report on              Noncompliant)/ No recommendations were offered/
September 27, 2012/ The OIG received a rating of
“Pass” in that report (federal audit organizations can                                 ***
receive a rating of Pass, Pass with Deficiencies, or
Fail)/ There are no outstanding recommendations
from previous peer reviews of the OIG/

                         ***

Peer Reviews Conducted

The SBA OIG conducted a peer review of the Railroad
Retirement Board Ofjce of Inspector General during
the last reporting period, but the final report had not
yet been issued/     On October 18, 2012, the OIG is1
sued its final report/ The Railroad Retirement Board
OIG received a rating of “Pass” in that report (federal
audit organizations can receive a rating of Pass, Pass
with Deficiencies, or Fail)/ There are no outstanding
recommendations from previous peer reviews of the
OIG/

                         ***




                                                          72
!ppendix XII: Organization
	

The OIG is comprised of the immediate ofjce of              The OIG headquarters is located in Washington, DC,
the Inspector General and four divisions. Audit1            and has field staff located in Atlanta, GA- Chicago, IL-
ing, Investigations, Counsel, and Management                Dallas/Fort Worth, TX- Detroit, MI- Denver, CO-
and Policy/                                                 Herndon, VA- Houston, TX- Kansas City, MO- Los An1
                                                            geles, CA- Miami, FL- New Orleans, LA- New York, NY-
                        ***                                 Philadelphia, PA- Tacoma, WA- and Washington, DC/
                                                            An organization chart for the OIG is shown on page
The Auditing Division performs and oversees                 74/
audits and reviews to promote the economical,
efjcient, and effective administration of SBA pro1
grams and operations/

The Investigations Division manages a program
to detect and deter illegal and improper activities
involving SBA programs, operations, and person1
nel/ The criminal investigations staff carries out a
full range of traditional law enforcement func1
tions/ The security operations staff ensures that
SBA employees and contractors have appropriate
background investigations and security clearances
to achieve a high level of integrity in the Agency’s
workforce, and that loan applicants and other
potential program participants are of good charac1
ter/

The Counsel Division provides legal and ethics
advice to all OIG components- represents the OIG
in litigation arising out of or affecting OIG opera1
tions- assists with the prosecution of criminal,
civil fraud, and administrative enforcement mat1
ters- processes subpoenas, responds to Freedom of
Information and Privacy Act requests- and reviews
and comments on proposed policies, regulations,
legislation, and procedures/

The Management and Policy Division provides
business support (e/g/, budget and financial man1
agement, human resources, IT, and procurement)
for the various OIG functions- coordinates prepa1
ration of the OIG’s Semiannual Report to Con1
gress, Report on the Most Serious Management
and Performance Challenges Facing the SBA, and
other OIG-wide reports and documents- main1
tains the OIG website- and operates the OIG’s
Hotline/




                                                       73
!ppendix XIII: Organization hart


                                       Inspector
                                        General


                                                                             ounsel Division
                                        Deputy
                                       Inspector
                                        General




                                      Investigations                                     Management and Policy
  !uditing Division
                                        Division                                               Division




                                                            Office of
                                                       Security Operations
                  redit Programs
                       Group




                     usiness
                 Development Pro-                        Eastern Region
                   grams Group




                    Financial                            entral Region
                 Management & IT
                     Group




                Disaster !ssistance                     Western Region
                        Group




                                           74
                          Make a Difference!
	
 To promote integrity, economy, and efjciency, we encourage you to report
     instances of fraud, waste, or mismanagement to the OIG Hotline/*


                                             Online:
        http.//www/sba/gov/office-of-inspector-general/2662



                                                Call:
                               1-800-767-0385 (Toll Free)



                                      Write or Visit.
	
                       U/S/ Small Business Administration
	
                           Office of Inspector General
	
                             Investigations Division
	
                        409 Third Street, SW (5th Floor)
	
                             Washington, DC 20416
	




*In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act, confidentiality of a
 complainant’s personally identifying information is mandatory, absent express consent by the complainant
 authorizing the release of such information/
